<html>
<title> - UNITED STATES POLICY TOWARD IRAN</title>
<body><pre>[Senate Hearing 105-611]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-611
 
                    UNITED STATES POLICY TOWARD IRAN

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                              ------------

                    U.S. GOVERNMENT PRINTING OFFICE
49-392 cc                   WASHINGTON : 1998





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
GORDON H. SMITH, Oregon              CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 DIANNE FEINSTEIN, California
JESSE HELMS, North Carolina          PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page
Eisenstadt, Michael, Senior Fellow, Washington Institute for Near 
  East Policy, Washington, D.C...................................    14
    Prepared statement...........................................    16
Emerson, Steven, Middle East Affairs Analyst, Author and 
  Terrorism Expert, Washington, D.C..............................    22
    Prepared statement...........................................    24
Indyk, Hon. Martin S., Assistant Secretary of State for Near 
  Eastern Affairs................................................     3
    Prepared statement...........................................     6
Murphy, Hon. Richard W., Senior Fellow, Council on Foreign 
  Relations, New York, NY........................................    33
    Prepared statement...........................................    35

                                 (iii)

  


                    UNITED STATES POLICY TOWARD IRAN

                              ----------                              


                         THURSDAY, MAY 14, 1998

                               U.S. Senate,
       Subcommittee on Near Eastern and South Asian
                    Affairs Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:40 p.m. In 
room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senators Brownback and Robb.
    Senator Brownback. The hearing will be called to order. I 
appreciate all of you joining us today. Mr. Indyk, I appreciate 
you gracing our committee yet again. It seems as if we get very 
familiar with each other.
    Although today--I know you have been involved a great deal 
in the peace process. We are not going to be talking about that 
today, unless you choose to do so, and make some great 
announcements of the United States removing any pressure on 
Israel and we are going to final status talks, but absent that 
we will talk about Iran today.
    I have had a great deal of concern, as you know, and a 
number of Members of the U.S. Senate have, of what the Iranians 
have been doing around the world, recent State Department 
report on Iran having it as the lead exporter of terrorism 
around the world.
    They have a visual up for you. Unfortunately you cannot 
particularly see it from where you are, but we will, if we 
could--I tell you, why don't we give a sheet of this to Mr. 
Indyk so he can see the various places.
    We have put together a map of terrorism and fundamentalism 
being exported by the Iranians, of activity around the world, 
which is substantial, what they are doing and all the places 
they have been involved in, many of them under your 
jurisdiction and review.
    The new leader of Iran seems to have some good intentions, 
but I also believe that the United States foreign policy is not 
about intentions, it is about actions, and in terms of actions 
there has been no change. Iran remains a sponsor of terrorism. 
It is still pursuing weapons of mass destruction, and 
notwithstanding the very good interview on CNN, it still stands 
as one of the United States' implacable enemies.
    We will make a mistake if we make any moves on Iran on the 
basis of impressions alone, I believe. When Iran changes their 
policies I think we should be changing our policies, so I am 
deeply concerned about some of the actions that I am seeing the 
United States taking at this point in time, when we continue to 
have a map that looks like this.
    And by all consideration of what I am witnessing on the 
ground, of what I am receiving of information, this map is not 
contracting. This map is expanding, of Iranian influence and 
actions throughout the world, particularly in these most 
troubled spots, North Africa, and Central Asia.
    So I hope you will be able to make some responses to us 
about the administration's activities and reviews toward Iran. 
I question some of the issues of so-called national interest 
waivers that are being discussed, particularly in regard to 
ILSA.
    In addition, in light of India's nuclear tests this week, 
it is all the more urgent that we do all that we can to alert 
the world, and Iran in particular, that the United States will 
neither tolerate an Iranian nuclear program, nor foreign 
subsidies to the Iranian treasury to help it develop one.
    Iran is pursuing its weapons program with unabated vigor. 
Missile cooperation with Russia is increasing. Nuclear 
cooperation is continuing. Iran is cooperating with China and 
Russia on chemical and biological weapons development.
    On the question of Iranian State sponsorship of terrorism 
and support for fundamentalist extremism, all we need do is 
look, again, at the map that we have posted. From Central Asia 
to Africa to Europe, as well as throughout the Middle East, 
Iran continues to sponsor assassinations, terrorism, and 
Islamic radicalism. They do so with cash, military equipment, 
logistics, and political support.
    So Ambassador, I am open to believing Iran can change. I 
would like the United States to renew relations with one of the 
most important countries in the Middle East, but I and many of 
my colleagues can never support embracing a nation responsible 
for the deaths of so many, many Americans without proof 
positive that the terrorism has ended, the weapons programs 
have ended, and the foreign policy of hatred is behind them for 
good.
    So I look forward to your statement today of United States 
position toward Iran of--hopefully you can tell me that the map 
is receding rather than expanding and, if it is not, what we 
are doing to see that that takes place, so we look forward to a 
good dialog.
    Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. I will not have any 
formal opening statement, but I think this is obviously a very 
important and timely hearing, perhaps not as strictly timely as 
the one that you called yesterday for India, but it is 
nonetheless of critical importance, and you have laid down a 
challenging agenda for Secretary Indyk in terms of the ground 
that we might cover in this hearing.
    There are some very tricky questions for the United States, 
and the United States policymakers for our relationships with 
Iran and Iran's relationship with all of its neighbors and some 
of the other countries you referred to in terms of the export 
of terrorism and allegations along those lines, so there is 
plenty to talk about and update, and I look forward to hearing 
first from Secretary Indyk, who has a long and distinguished 
career in that part of the world, and then from our following 
panel as well.
    Senator Brownback. Very good. Ambassador Indyk, thank you 
for joining us, and we look forward to your statement.

STATEMENT OF HON. MARTIN S. INDYK, ASSISTANT SECRETARY OF STATE 
                    FOR NEAR EASTERN AFFAIRS

    Mr. Indyk.  Thank you very much, Mr. Chairman. It is a 
pleasure to be back here in front of you again, and I always 
look forward to these opportunities and I hope we will have 
many more such to exchange views, but I also appreciate the 
opportunity you provide and the administration to both present 
its approach to these issues that are vital to U.S. interest 
and also to hear of your concerns and to take them into account 
as we go forward.
    Today, as you have pointed out, we are going to focus on 
Iran, and I wanted to lay out to you how we address those 
concerns and give you a sense of how we view what is happening 
there and how we see the potential for change there affecting 
our own approach.
    The United States concerns regarding some aspects of 
Iranian foreign policy practices remain unchanged, as does our 
determination to effectively address them.
    Senator Brownback. Mr. Indyk, would you mind pulling the 
mike down a little bit and closer to you. I think it is pretty 
directional.
    Mr. Indyk.  As I said, our concern about some aspects of 
Iranian foreign policy practices, particularly in the area of 
weapons of mass destruction and terrorism, those concerns 
remain unchanged, as does our determination to effectively 
address them.
    As the State Department's recently published annual report 
on terrorism made clear, Iran continues to be the most active 
State sponsor of terrorism. Throughout 1991, Iran continued to 
train and equip known terrorist groups, especially Hizbollah, 
Hamas, and Palestine Islamic Jihad, and to support the violent 
opposition to the Middle East peace process.
    Iranian agents assassinated at least 13 Iranian dissidents 
abroad in 1997. At least two of those attacks occurred after 
President Khatami's inauguration. The fatwa against Salman 
Rushdie remains in place, along with a $2.5 million reward 
offered for his murder.
    The Iranian regime still seeks to protect its regional 
influence through a conventional military buildup and through 
the development of weapons of mass destruction and advanced 
missile systems.
    Iran continues to pursue nuclear technologies, chemical and 
biological weapons components and production materials. Iran's 
acquisition of ever more sophisticated missile technology 
presents an increasing threat to our friends and allies, as 
well as to our own military presence in the Gulf.
    In particular, Iran's pursuit of an indigenous capability 
to produce long-range ballistic missiles poses a threat to the 
stability of the Middle East, a region of vital interest to the 
United States. I know you, Senator Brownback, and you, Senator 
Robb, have both been particularly concerned about this 
development, as are we.
    The international community remains deeply concerned by 
Iran's human rights record. While the U.N. Special 
Representative has documented some progress, particularly in 
the area of freedom of speech, the U.N. High Commission on 
Human Rights once again this year adopted a resolution 
expressing concern regarding continuing human rights abuses 
such as severe restrictions on freedom of religion, another 
issue which I know you are concerned about, Mr. Chairman.
    The United States has sought to address these issues by 
obstructing Iran's ability to acquire the technology and 
materials necessary to develop the weapons of mass destruction 
and missile systems. This has been one of the highest 
priorities of the Clinton administration, a challenge that the 
President, the Vice President, and the Secretary of State have 
devoted considerable energy to confront.
    We have made real progress with China and with the Ukraine 
in restricting their nuclear cooperation with Iran. We have 
begun to see the Russian Government taking tangible steps to 
shut down the cooperation Iran has received from Russian 
companies for its Shehab long-range missile program, but more 
needs to be done.
    We will continue to pursue this issue with the greatest 
vigor with the new Government in Russia, which has recommitted 
itself to a cooperative effort to end assistance by Russian 
entities to the Iranian missile program.
    In recent days, President Yeltsin has made strong comments 
on the need to enforce export controls on WMD and missile 
technology. Further, the Russian Government appears to be 
issuing the necessary decrees and regulations to implement the 
January 22, 1998 executive order issued by then Prime Minister 
Chernomyrdin expanding the authority to control technologies of 
concern.
    You may have seen press reports today of those decrees 
being issued, which would provide, amongst other things, for 
the establishment of monitoring agencies within each company 
that is involved in these areas of concerns.
    But I should emphasize again that full implementation of 
all of these measures will be critical.
    We also work assiduously with our international partners to 
improve cooperation between law enforcement intelligence 
organizations to impede the ability of Iran or its surrogates 
to carry out terrorist attacks, and also to punish the 
perpetrators in the event of successful attacks. These measures 
are by no means foolproof, but due to strong international 
cooperation they are becoming highly effective.
    Although we have an obligation to take the lead, we cannot 
be fully effective in nonproliferation and counterterrorism 
efforts if we act only alone. We need the cooperation of others 
in the international community.
    We continue to apply unilateral economic pressure on Iran 
to make the point that there is a price to be paid for pursuing 
policies which violate international norms. Unilateral 
sanctions have proven costly to American business. However, we 
believe that Iran poses threats so significant that we have no 
choice but to accept those costs. Economic pressure has an 
important role in our efforts to convince Iran to cease its 
efforts to acquire weapons of mass destruction and missiles and 
its efforts to sponsor terrorism.
    We will continue to seek the most effective means of using 
this policy to further our goal of changing Iran's policies on 
terrorism, weapons of mass destruction and missile development, 
and other areas of concern. Our basic purpose is to persuade 
Iran that it cannot have it both ways.
    It cannot benefit from participation in the international 
community while at the same time going around threatening the 
interests of its member States. It cannot improve its relations 
and standing in the West and in the Middle East while at the 
same time pursuing policies that threaten the peace and 
stability of a vital region.
    Mr. Chairman, Iran can play a constructive role in the 
Middle East, and we would welcome that. Iran can have a 
constructive relationship with the United States, and President 
Clinton has made clear that he would welcome that.
    We continue to advocate a Government-to-Government dialog 
in this regard as the most effective means of addressing the 
concerns of both countries, but as long as Iran threatens the 
interests of the United States and our friends in the Middle 
East, we will continue to oppose those policies.
    We will continue to press for enhanced international 
cooperation to counter the threat of Iranian weapons of mass 
destruction and the threat from terrorism, and to address the 
human rights situation in Iran. These are issues of fundamental 
import to the United States.
    For almost a year now since the election of President 
Khatami we have watched events unfold in Iran with great 
interest. Will Iran's Government change anything? We believe 
the prospects for change are indeed there. President Khatami's 
election in May 1997 reflected this desire for change on the 
part of a large majority of the Iranian electorate.
    Khatami was not the candidate of the regime's dominant 
conservative faction and, since his election, he has continued 
to make clear that he intends to challenge the rule of the 
conservative clergy by meeting the demands of the Iranian 
people for greater freedom, for more respect for the rule of 
law, and for a more promising economic future.
    The new Government's power and ability to achieve such 
objectives have been questioned, yet since Khatami's 
inauguration, one surprise seems to have followed another. 
Parliament first of all approved all of his cabinet choices, 
including the placing of a woman in a significant cabinet 
portfolio. The United Nations Special Representative on Human 
Rights in Iran noted in his most recent report that public 
debate in Iran has now become more open. There is a vigorous 
exchange in the Iranian press, even on delicate subjects such 
as the rule by the clergy and the role of women in an Islamic 
society.
    President Khatami has spoken out on foreign policy issues, 
and his rhetoric on terrorism in particular on the Middle East 
peace process and the desirability of people to people dialog 
with the United States has been in sharp contrast to previous 
Iranian Government positions.
    Iran's new Government has made it clear that it wants 
increased cultural contacts between the United States and Iran. 
This in itself is a significant change, if one remembers the 
taking of American hostages and the burning of American flags. 
Some steps have already been taken on both sides to encourage 
such exchanges, and we expect these steps to continue.
    Perhaps the most revealing incident since President 
Khatami's inauguration was the arrest and then subsequent 
release of Tehran's Mayor Karbaschi, whom the Iranian public 
considers to be one of Iran's most effective public servants 
and reformers.
    His arrest on corruption charges sparked a potentially 
serious confrontation between the supporters of President 
Khatami, who believe the arrest to be politically motivated, 
and opponents of the President from the conservative flanks. 
University students demonstrated in support of Karbaschi and 
President Khatami.
    The crisis clearly showed the fault lines within Iran, and 
the very real challenge that Khatami faces in reforming Iran's 
domestic as well as its foreign policies.
    Although President Khatami is challenging the conservatives 
on important issues, the presidency of Iran has not typically 
controlled national security policy, nor the critical Iranian 
institutions like the military, the police, security and 
intelligence services, and the Revolutionary Guards, all of 
which have a critical role in national security policies.
    These institutions remain the domain of the supreme leader, 
Ayatollah Khamenei, and it is not clear how far President 
Khatami is able to go to exert control in these areas, yet it 
is precisely in the national security domain that Iran 
continues to pursue policies of greatest concern to us.
    If President Khatami is able to turn his constructive 
rhetoric into real change in these areas of concern to us, that 
would lay the foundation for an appropriate response on our 
side, including better relations between our two countries. To 
sustain any effort to improve relations, however, such changes 
in actions, in policies, are essential, and in the meantime we 
will continue to focus our energies on countering the effect 
from Iran in these areas.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Indyk follows:]

                   Prepared Statement of Martin Indyk

    Mr. Chairman, I'm pleased to have the opportunity to speak to you 
today on one of our most important foreign policy challenges, Iran. I 
want to discuss our areas of concern regarding Iran and how we are 
addressing those concerns. I will also discuss our current view of Iran 
and what changes we see from the new government there.
    U.S. concerns regarding some aspects of Iranian foreign policy 
practices remain intact, as does our determination to effectively 
address them. As the Department's recently published annual report on 
terrorism made clear, Iran continues to be the most active state 
sponsor of terrorism. Throughout 1997, Iran continued to train and 
equip known terrorist groups, especially Hezbollah, Hamas and PIJ, and 
to support their violent opposition to the Middle East peace process. 
Iranian agents assassinated at least 13 Iranian dissidents abroad in 
1997; at least two of those attacks occurred after President Khatami's 
inauguration. The fatwa against Salman Rushdie remains in place, along 
with the $2.5 million reward offered for his murder.
    The Iranian regime still seeks to project its regional influence 
through a conventional military build-up and through the development of 
weapons of mass destruction and advanced missile systems. Iran 
continues to pursue nuclear technologies, chemical and biological 
weapons components and production materials. Iran's acquisition of ever 
more sophisticated missile technology presents an increasing threat to 
our friends and allies as well as our own military presence in the 
Gulf. In particular, Iran's pursuit of an indigenous capability to 
produce long-range ballistic missiles poses a threat to the stability 
of the Middle East, a region of vital interest to the U.S..
    The international community remains deeply concerned by Iran's 
human rights record. While the Special Representative has documented 
some progress, particularly in the area of freedom of speech, the UN 
High Commission on Human Rights once again this year adopted a 
resolution expressing concern regarding continuing human rights abuses 
such as severe restrictions on freedom of religion and the use of 
brutal and inhuman punishments such as stoning, and the use of the 
death penalty for non-violent offenses.
    The U.S. has sought to address these issues by first, obstructing 
Iran's ability to acquire the technology and materials necessary to 
develop weapons of mass destruction and missile systems. This has been 
one of the highest priorities of the Clinton Administration ... a 
challenge that the President, Vice President and Secretary of State 
have devoted considerable energy to confront. We have made real 
progress with China and Ukraine in restricting nuclear cooperation. We 
have begun to see the Russian government take tangible steps to shut 
down the cooperation Iran has received from Russian companies for its 
Shehab long-range missile program. But more needs to be done. We will 
continue to pursue this issue with the greatest vigor with the new 
Russian government which has recommitted itself to a cooperative effort 
to end assistance by Russian entities to the Iranian missile program.
    In recent days President Yeltsin has made strong, helpful comments 
on the need to enforce export controls on WMD and missile technology. 
Further, the Russian government appears to be issuing the necessary 
rules and regulations to implement its January 22 executive order 
expanding authority to control technologies of concern. Again, full 
implementation of all of these measures will be key.
    We also work assiduously with our international partners to improve 
cooperation between law enforcement and intelligence organizations to 
impede the ability of Iran or its surrogates to carry out terrorist 
attacks and to punish the perpetrators when an attack is successful 
These measures are not foolproof, but due to strong international 
cooperation, they are becoming highly effective. Although we must take 
the lead, we cannot be effective in our nonproliferation and 
counterterrorism efforts if we act alone.
    We continue to apply unilateral economic pressure on Iran to make 
the point that there is a price to be paid for pursuing policies which 
violate international norms. Unilateral sanctions have proven costly to 
U.S. business. However, we believe that Iran poses threats so 
significant that we have no choice but accept these costs. Economic 
pressure has an important role in our efforts to convince Iran to cease 
its efforts to acquire weapons of mass destruction and missiles and to 
support terrorism. We will continue to seek the most effective means of 
using this policy to further our goal of changing Iran's policies on 
terrorism, WMD and missile development and other areas of concern.
    Our basic purpose is to persuade Iran that it cannot have it both 
ways: it cannot benefit from participation in the international 
community while at the same time going around threatening the interests 
of its member states; that it cannot improve its relations and standing 
in the West and in the Middle East while at the same time pursuing 
policies that threaten the peace and stability of a vital region.
    Iran can play a constructive role in the Middle East. We would 
welcome that. Iran can have a constructive relationship with the U.S.. 
President Clinton has made clear he would welcome that. We continue to 
advocate a government-to-government dialogue as the most effective 
means of addressing the concerns of both countries. But as long as Iran 
threatens the interests of the U.S. and our friends in the Middle East, 
we will continue to oppose it.
    We will continue to press for enhanced international cooperation to 
counter the threat of Iranian WMD and terrorism and to address the 
human rights situation in Iran. These are issues of fundamental import 
to the U.S.
    For almost a year now, since the election of President Khatami, we 
have watched events unfold in Iran with great interest. Will Iran's new 
government change anything? We believe the prospects for change are 
there. Mohammad Khatami's election in May 1997 reflected this desire 
for change on the part of a large majority of the Iranian electorate. 
Khatami was not the candidate of the regime 5 dominant conservative 
faction.And since his election, he has continued to make clear that he 
intends to challenge the rule of the conservative clergy by meeting the 
demands of the Iranian people for greater freedom, more respect for the 
rule of law and a more promising economic future. The new government's 
power and ability to achieve such objectives have been questioned. Yet, 
since Khatami's inauguration, one surprise has followed another. The 
Parliament approved all of Khatami's cabinet choices. The UN Special 
Representative on Human Rights in Iran noted in his most recent report 
that public debate in Iran has become more open, even on delicate 
subjects such as rule by religious leadership and the role of women in 
an Islamic society. Khatami has spoken out on foreign policy issues, 
and his rhetoric on terrorism, the Middle East peace process and the 
possibility of people-to-people dialogue with the U.S. has been in 
sharp contrast to previous Iranian government positions.
    Iran's new government has made it clear that it wants increased 
cultural contacts between the U.S. and Iran. This, in itself, is a 
significant change. Some steps have already been taken on both sides to 
encourage such exchanges. We expect these to continue.
    Perhaps the most revealing incident since Khatami's inauguration, 
was the arrest and release of Tehran' 5 mayor, Gholamhossein Karbaschi, 
whom the Iranian public consider to be one of Iran's most effective 
public servants. His arrest on corruption charges sparked a potentially 
serious confrontation between Khatami supporters, who believed the 
arrest to be politically motivated, and opponents of the President. 
University students demonstrated in support of Karbaschi and Khatami.
    The crisis clearly showed the fault lines within Iran and the very 
real challenges Khatami faces in reforming Iran's domestic as well as 
foreign policies.
    Although President Khatami is challenging the conservatives on 
important issues, the presidency typically has not controlled national 
security policy, nor critical Iranian institutions like the military, 
the police, the security and intelligence services and the 
Revolutionary Guards. These remain the domain of the Supreme Leader, 
Ayatollah Khamenei, and it is not clear how far Khatami is able to go 
in these areas. Yet it is precisely in the national security domain 
that Iran is pursuing policies of greatest concern to us.
    If President Khatami is able to turn his constructive rhetoric into 
real changes in the areas of concern to us, that would lay the 
foundation for an appropriate response on our side, including better 
relations between our two countries. To sustain any effort to improve 
relations, such changes are necessary; in the meantime, we will 
continue to focus our energies on countering the threat from Iran in 
these areas.

    Senator Brownback. Thank you very much, Mr. Indyk.
    If I could get somebody on the staff, I want to get this 
chart around here so we can both look at it, because I want to 
go through some of the places where Iran is operating.
    I appreciate your statement and the difficulty of dealing 
with the present situation that we have, and the hope and the 
promise of new leadership that is in Iran, yet the actions that 
go contrary to that--and you seem to struggle with the same 
issues in your statement.
    I do not think that you quarrel any with my point that Iran 
is operating on our map that we have here in 21 different 
countries around the world, or has actions in 21 different 
countries around the world today. Is that correct, or do you 
know the number?
    Mr. Indyk.  I do not have the number off-hand, but when I 
look at your map I think it is a pretty good depiction of many 
of the areas of concern.
    Senator Brownback. I have heard reports of additional 
countries that are not on this map of operation by the 
Iranians, so they are there, they are active, they are pursuing 
expansionist desires.
    I was in Uzbekistan recently. I have been in Azerbaijan, 
very concerned about the expansion of Iranian-supported groups 
in Central Asia and the South Caucasus, in these weak, weak 
countries.
    What I am concerned about, Ambassador, is that it seems as 
if the statements coming out of the administration and the 
rumors I am getting are that we are trying to make nice with 
the Iranians at this point in time when they continue a very 
expansionist agenda.
    The statements coming out--and I support dialog and 
discussion, and wrestling is good, glad to see that, but then I 
hear pretty reliable rumors that the administration is making a 
decision on the Iran-Libya Sanctions Act regarding the Total 
and Gasprom deal, that they are looking at a national interest 
waiver under 9(c) with that.
    I would hope you would illuminate me as to, is the 
administration going to grant that, and this seems quite a 
strong positive step, given what actions the Iranians are 
currently taking around the world.
    Mr. Indyk.  Thank you, Mr. Chairman. First of all, I would 
emphasize our public record. As you very well know, there are a 
lot of rumors that are produced by the rumor mill, particularly 
in this town, but I appreciate the opportunity to come before 
you so we can deal with what the reality is, and I think that 
you would agree that we pull no punches in our State Department 
report on terrorism.
    The question that you ask on ILSA is one that is difficult 
for me to answer at this moment. It is an issue which is under 
active consideration. I think it is correct to say that a 
decision is imminent. Under Secretary Eizenstadt will be 
briefing you and other Senators and Congressmen I think in the 
next few days, but because the decision has not been made, it 
is not appropriate for me to talk about it in public session, 
the decision itself.
    What I will say, however, in response to your question is 
that it is important to understand that whatever the decision 
turns out to be, it will be made on the basis of a commitment 
of the administration to uphold the law and the purposes of 
this particular piece of legislation.
    This, the ILSA legislation's purposes, as I think you are 
very familiar with, was to encourage cooperation to help us in 
our efforts to prevent the activities you are talking about, 
particularly terrorism and weapons of mass destruction 
proliferation, and at the same time to discourage foreign 
investment in Iran's oil industry.
    Senator Brownback. If you could, Mr. Ambassador, in looking 
at that map, do you know of another country anywhere in the 
world that is as expansionist or as terrorist-oriented as Iran?
    Mr. Indyk.  It is our judgment that Iran continues to be 
the leading sponsor of terrorism.
    Senator Brownback. Is there another country in the world 
that is any more expansionist-oriented than Iran at the present 
time?
    Mr. Indyk.  I am not sure what you mean by expansionist- 
oriented, because----
    Senator Brownback. The spread of their ideology and 
philosophy to other nations.
    Mr. Indyk.  I think that in that regard we have seen a 
change under President Khatami. There has been an effort since 
the hosting in Tehran of the OIC, the Organization of Islamic 
Countries summit, by the new Government in Iran to reach out, 
particularly to its neighbors, many of the countries on this 
map, and to try to turn a new page in their relations with 
those countries, particularly in the Gulf, where the--actually 
you could color in some more of the map here, I see, because 
countries like Kuwait and Bahrain and UAE, there has been some 
real concern, and of course in Saudi Arabia, at the activities 
of Iran to promote terrorism and subversion.
    And you can be sure that when these Governments, our 
friends and allies in the region, receive these overtures from 
the new Government of Iran, that the issues that you are 
talking about that you are discussing today were uppermost on 
their agenda, and I think that they made clear to the Iranians 
that if there was to be an improvement in relations, then this 
kind of activity had to cease.
    And the interesting thing is that, although the jury is 
still out on this one, that what we hear from those Governments 
is that the level of activity has decreased, their level of 
concern has decreased in this area, so I do not want to 
exaggerate it, but there is a change afoot in terms of Iran's 
efforts to repair its relations with its near neighbors and 
terrorism and its support for subversive elements is very high 
on their agenda in that regard.
    Senator Brownback. Mr. Ambassador, with all due respect, I 
do not see how it is in our national interest for a national 
interest waiver under ILSA, to put a waiver in place for Iran 
operating on this map 21 different countries, and as you know 
there are some others to put on here, to allow Iran to have 
several billion dollars flowing into their coffers off of the 
proposal to allow Total and Gasprom to operate so they can pour 
that into weapons programs or terrorism programs.
    They are the lead sponsor of terrorism around the world. 
How can it be in our national interest to provide a waiver if 
the U.S. expects to deter any other countries from operating or 
investing in Iran, given our willingness to roll over on this 
issue? How could it be in our national interest to provide a 
waiver if they can justify the all-out U.S. embargo on Iran 
which denies profits to American companies and then waive on 
this issue for Total or Gasprom?
    I realize decisions are imminent, and that is why we are 
holding this hearing. That is why I am trying to make these 
points to you, is that I fail to see how, under any category, 
under any category that you could see that this is in our 
national interest to provide a waiver to Gasprom or Total under 
ILSA. I do not see how that can possibly be interpreted as 
being in our national interest.
    Mr. Indyk.  I hear you, Mr. Chairman. I hope you understand 
my difficulty in responding, given that the decision has not 
yet been made, so I will have to make a general response, which 
I started to make before, which is that whatever the decision, 
the assessment of the administration in making this decision 
will be based on an assessment of how best to promote the 
purposes of the legislation, which is not only the law, but its 
objectives are those that we hold in common with you.
    There is no disagreement about the objectives of wanting to 
find ways to discourage Iran's efforts to acquire weapons of 
mass destruction or sponsor terrorism, and the judgment will 
have to be made by the Secretary of State based on that 
assessment, but the objective is clear, and the assessment has 
to take into account how best we can achieve one of the 
objectives of the legislation, which is cooperation from other 
members of the international community in the pursuit of those 
objectives that I just outlined.
    Senator Brownback. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. I would like to 
compound the difficulty for just a moment, if I may on that 
subject, and look at the other side of the equation.
    And I understand your reluctance to be more definitive, 
given the fact that the decision has at the very least not been 
formalized and announced at this point, and recognizing that 
there is frequently a constructive interplay between the 
executive and legislative branches where the legislative branch 
gets to play bad cop and the administration can play good cop 
and elicit some cooperation under a variety of different 
circumstances from various nations, in part under the threat 
that we will just let that nasty Congress have their way with 
you, and see what we are saving you from, and it has worked, or 
at least arguably it has worked in a number of cases, I am 
thinking.
    I do not want to give any final judgments on any of these 
things, but I am just thinking of the recent--I think it was a 
Sense of the Senate that we did with respect to China and the 
Human Rights Commission and what-have-you and, of course, we 
have a number of instances under Helms-Burton that have given 
almost everyone indigestion no matter how they came down on it.
    Let me just ask you to speculate, if you will, on the 
reaction of, say, the French if we were to carry out the 
sanctions on Total and other European allies, and what kinds of 
reaction we might expect from the international community, just 
so that we can look at both sides of the question, some of the 
things that you obviously are putting on the table as you 
prepare to provide advice and counsel to the President, who 
will have to stand behind this recommendation, although it may 
be announced by the Secretary of State or yourself at the 
appropriate time.
    Mr. Indyk.  I do not think it will be announced by me.
    The issue of secondary boycotts, which the ILSA legislation 
effectively provides for, is something that no Governments 
particularly welcome, and we ourselves have not welcomed it in 
other cases. In fact----
    Senator Robb. That particular statement does not elicit any 
controversy, I can assure you.
    Mr. Indyk.  And so when you ask about the reaction of the 
French, I do not have to speculate. We know pretty clearly what 
the reaction of the French Government and other EU countries is 
to this legislation and Helms-Burton. We have seen their 
vigorous opposition and the considerable heartburn that it 
causes, and in this particular case, even among our closest 
allies. The sanctions under ILSA are seen as an attempt by the 
United States to penalize their companies, companies from their 
countries, for activities that their Governments regard as not 
only legal but, from their point of view even desirable.
    That is clearly not our point of view, and that is why we 
have worked with the Congress first of all to tailor the 
legislation in a way that would make it effective, and then 
have worked with Congress to implement it.
    But you asked about their view, and their view is very hard 
over. They do not see why their companies should be punished 
for things which they consider to be the right thing to do in 
terms of international commerce, and they view the legislation 
as an issue of extraterritoriality, where we are trying to 
extend our law to other countries and other companies.
    So their reaction is very negative, and that is what I was 
suggesting when I said that one of the purposes of the 
legislation is to try to encourage cooperation from these 
countries, and we are only going to be effective--I mean, there 
are certain things we can do on our own that we are doing 
unilaterally, but in order to be effective against the threats 
that we see here, we need international cooperation, and there 
is always a question of what is the best way to achieve that 
international cooperation.
    Senator Robb. The chairman's question essentially, though, 
is what if we do not get it? What does that say to others, and 
what does that say to U.S. companies that might have similar 
economic interests in developing trade with a targeted country, 
in this case Iran?
    Mr. Indyk.  Well, we have to do our best to get it. That is 
the objective here, and if we do not get that cooperation, then 
the purposes of the act are not going to be fulfilled. We would 
have to then look at it.
    I am not sure whether that answers your question.
    Senator Robb. I am not sure that I think I really want you 
to answer the question quite as fully as I would like you to 
answer the question, because it would, number 1, end up 
resulting, I guess, in an additional speculation, and I might 
make your job even more difficult.
    I fully appreciate the difficulty you are in, but since you 
are already dealing with the question I wanted to at least look 
at it from both sides so that we could have a reasonable 
representation of the kinds of factors you are going to be 
considering when you make that decision.
    But my time has expired.
    Senator Brownback. Go ahead.
    Mr. Indyk.  If I might respond just again, Mr. Chairman, to 
say that one of the reasons that this process has taken some 
time is that we have been engaged in intensive efforts to stop 
the investments and to gain the cooperation of our allies and 
friends in the international community that can affect Iran's 
behavior and the legislation----
    Senator Robb. Excuse me, may I interrupt? Do you consider 
progress on a separate front to be significant enough to offset 
a lack of cooperation in the specific entity, in this case the 
gas programs, or Total and Gasprom?
    Mr. Indyk.  I am not sure what you mean by separate front. 
If you mean progress on cooperation against terrorism or 
weapons of mass destruction, yes, that is the purpose of the 
legislation.
    Senator Robb. Some other objective that would, in effect, 
mitigate your concern about the specific violation of ILSA.
    Mr. Indyk.  We have to be careful with terms here, but if I 
understand your point, what I am saying is that the purpose of 
the legislation is to achieve a change in Iranian behavior in 
these areas of concern that we share, and the purpose of the 
legislation is to encourage cooperation in that regard, and 
that is why the legislation has built into it--it has built 
into it a very extensive waiver provision with all sorts of 
different options, because the legislators recognize that this 
could be used as a vehicle for trying to achieve the ultimate 
objective.
    And so that is the context in which we have been trying to 
work, and we countries, not just the countries that have 
companies involved in the particular transaction at South Pass 
Field, but also other countries, to try to assure maximum 
effort to counter these areas of concern by Iran.
    Senator Robb. I guess--and I am not trying to split hairs 
here, but progress with respect to the targeted country, or 
progress with respect to Iran on countering terrorists or 
terrorism activities?
    Mr. Indyk.  Policies with regard to the policies pursued by 
the countries that are affected by this legislation, or other 
countries that have dealings with Iran and can therefore 
influence Iran. In that sense, it is an indirect approach. We 
are obviously trying to deter investment in Iran. That is also 
part of the purposes of the legislation, and that is, as it 
were, the direct approach, but the indirect approach is to try 
to change the policies of the countries involved to step up 
their cooperation in these areas of concern.
    Senator Robb. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Brownback. Thank you, Senator, and thank you, Mr. 
Ambassador. We appreciate your appearing in front of the 
committee, and we appreciate your comments, and hopefully we 
can have a good decision coming out of the administration and 
not waiving ILSA in this regard. Thank you for joining us.
    I have a need to get to the floor. There is a proposal that 
is up that I have to be on at the present time. We need to take 
a break if we could before our next panel comes up, in looking 
at the clock, hoping we can get restarted at 2:45, so if we 
could, let us take a short recess.
    I apologize to the witnesses and to those in the audience, 
but we have the India matter up on the floor now, with the 
defense authorization bill, and I have to be over there for a 
moment. We will reconvene at 2:45. [Recess.]
    Senator Brownback. It turns out I got queued up later in 
the line, so we will go ahead and proceed. I apologize, and beg 
your indulgence.
    Our second panel will be Mr. Michael Eisenstadt, senior 
fellow of the Washington Institute for Near East Policy, Hon. 
Richard W. Murphy, senior fellow on the Council on Foreign 
Relations, and Mr. Steven Emerson, Middle East affairs analyst 
and author and expert on terrorism.
    So I appreciate very much this panel. I apologize for the 
back-and-forth. This is the U.S. Senate. These things happen, 
it seems like fairly often.
    Mr. Eisenstadt, we appreciate your joining us. I think we 
will run the time clock at a 5-minute interval, and we can 
accept your written testimony into the record, if you would 
like to summarize, if you would like to read off of it. The 
clock will give you some indicator of where you are. We do not 
want to rush you, but at the same time I would like to get 
succinct comments put into the record. So Mr. Eisenstadt, thank 
you for joining us.

  STATEMENT OF MICHAEL EISENSTADT, SENIOR FELLOW, WASHINGTON 
        INSTITUTE FOR NEAR EAST POLICY, WASHINGTON, D.C.

    Mr. Eisenstadt.  Thank you, Mr. Chairman. Thank you for 
inviting me to address the subcommittee.
    I would like to make a few comments about American policy. 
I have in my written comments my assessment of what we have 
seen in terms of the Khatami Government's activities in the 
areas of weapons of mass destruction, terrorism, and the Arab-
Israeli conflict. In short, I would say there is a lot more 
continuity than change in that area, apropos to your comments 
before and the statement by Ambassador Indyk.
    With regard to U.S. policy, I would say this. Overall I 
think the most important achievement of United States policy 
toward Iran to date is its success in containing Iran. That is, 
limiting its trouble-making potential, its ability to threaten 
U.S. allies and interests in the region by denying it access to 
arms, technology, and the hard currency necessary to acquire 
these arms and technology.
    U.S. pressure, diplomatic demarches, and interdiction 
operations have thwarted several major conventional arms 
transfers and countless smaller ones to date. Moreover, Iran's 
economic woes, which have been exacerbated by United States 
sanctions, have forced Iran to cut procurements since 1989 by 
more than half, and delayed its efforts to acquire conventional 
arms and weapons of mass destruction.
    Lacking the funds to sustain a major across-the-board 
military buildup, Iran has had to content itself with 
selectively enhancing its military capabilities.
    Continuing these efforts to deny Tehran loans, credit, and 
hard currency at a time of economic distress caused by low oil 
prices will compel Iran to continue to spend more on butter 
than guns in the coming years so that it could meet its debt 
service obligations and heightened expectations among its 
people that President Khatami can improve living conditions in 
that country.
    President Khatami's election and his opening to the 
American people, however, have greatly altered the rules of the 
game and greatly complicated Washington's calculations in a way 
that will require the United States to modify its approach 
toward Iran.
    Washington will need to muster a degree of sophistication 
and subtlety that has been largely lacking in U.S. policy till 
now if it is to avoid the dangers and grasp the opportunities 
created by these new circumstances.
    Past efforts to deny Iran arms, technology, an funds have 
yielded a number of important achievements, and such efforts 
should remain at the heart of United States policy toward Iran.
    However, the United States can no longer rely exclusively 
on such measures. In formulating its policy toward Iran, the 
United States needs to consider the implications of its efforts 
on three sets of actors, (1) the Iranian Government, (2) the 
Iranian people, and (3) key third parties such as our Arab Gulf 
and European allies.
    Specifically, the United States needs to better understand 
how its policy toward the Iranian Government affects its 
standing in the eyes of the Iranian people and its relations 
with the Gulf Arabs and its Western European allies.
    Most Iranians like Americans and admire the United States 
and what it stands for. This reservoir of goodwill is a 
precious American asset that must not be squandered and, 
because the Iranian people is the main engine for political 
change in that country, it is a source of leverage over the 
Iranian Government.
    The potential offered by this leverage was most clearly 
demonstrated by President Khatami's CNN address to the American 
people, which more than anything else, in my mind at least, was 
a nod to public opinion in Iran which strongly favors 
normalizing relations with the U.S.
    Moreover, to the degree that the recent Saudi-Iranian 
rapprochement was motivated by Saudi desires to distance itself 
from the United States following the Khobar Towers bombing to 
avoid being caught in the middle of an Iranian-American clash, 
efforts to reduce tensions with Tehran would reassure some of 
our Arab Gulf allies that we are, in fact, not headed toward a 
confrontation with Iran.
    This is crucial, since ongoing efforts to contain Iran will 
require the continued cooperation of our Arab Gulf allies.
    Finally, demonstrating a willingness to increase contacts 
with the Iranian people and to explore the possibility of 
official contacts with Tehran would strengthen Americans' case 
with its European allies, since it would demonstrate that 
United States policy toward Iran is not driven by domestic 
politics, and that the United States is eager to test Iran's 
intentions. This would better enable the United States to make 
the case to its European allies that dialog and pressure can go 
hand-in-hand.
    On the other hand, it would be a severe setback for United 
States policy if the Iranian Government could make a credible 
case to the Iranian people and to our Arab Gulf and European 
allies that the United States had spurned President Khatami's 
call for a dialog between peoples and other Iranian gestures.
    Small, tangible steps by Washington to relax tensions with 
Tehran would thus help the United States test Iranian 
intentions and, perhaps more importantly, avoid an erosion in 
its standing with both the Iranian people and key allies.
    Moreover, through its actions, the United States must make 
it clear to the Iranian people that it is their Government that 
is the main obstacle to increased contact and better relations 
between the two countries. This could lead to additional 
pressure for change in Tehran.
    Now, what does this mean in terms of specific policy 
recommendations? First, with regard to the Iran-Libya Sanctions 
Act, the United States should avoid issuing a determination of 
sanctionability regarding the Total deal for as long as 
possible to retain the deterrent value posed by the threat of 
sanctions, to avoid a fight with the Europeans, and to avoid 
the appearance of responding to Khatami's opening to the 
American people with what could be perceived or portrayed as a 
slap in the face.
    Second, in responding to these new circumstances in Iran, 
the U.S. should be flexible in areas where it can afford to, 
while continuing to maintain pressure in areas where it needs 
to. That is, with regard to weapons of mass destruction, 
terrorism, and obstruction of the Arab-Israeli peace process.
    There are a number of steps we could take, such as 
streamlining visa applications where this is consistent with 
United States security concerns, support for people-to-people 
contacts, and a Presidential speech to the Iranian people along 
the line of Khatami's CNN interview.
    Finally, because Russia and China have demonstrated 
repeatedly a disturbing tendency to violate commitments made to 
the United States by transferring sensitive arms and technology 
to Iran when they believe they can get away with it, sanctions 
that punish Russian and Chinese companies that engage in such 
transfers and that deny Iran the hard currency required to fund 
these transactions will have to remain an essential component 
of United States policy toward Iran for the foreseeable future.
    Thank you.
    [The prepared statement of Mr. Eisenstadt follows:]

              Prepared Statement of Michael Eisenstadt \1\
---------------------------------------------------------------------------

    \1\ The author is a Senior Fellow at The Washington Institute for 
Near East Policy. He previously served as an analyst with the U.S. 
Army, and as a researcher for the U.S. Air Force Gulf War Air Power 
Survey (GWAPS). He is author of ``Iranian Military Power: Capabilities 
and Intentions'' (Washington, D.C.: The Washington Institute, 1996).
---------------------------------------------------------------------------
    The May 1997 election of Mohammad Khatami as president of Iran has 
raised hopes and expectations of change in Iran's domestic and foreign 
policy. In the foreign policy arena, it is possible to discern a new 
vocabulary (emphasizing ``detente,'' ``stability,'' and a ``dialogue 
between civilizations'') and efforts to defuse tensions with former 
adversaries. The latter includes a diplomatic ``charm offensive'' to 
mend fences with its Arab Gulf neighbors--most notably manifested by 
its recent rapprochement with Saudi Arabia (which in fact antedated 
Khatami's election), and an opening to the American people in the form 
of Khatami's CNN interview in January of this year.
    However, other aspects of Iran's foreign and defense policy show 
more continuity than change. With regard to weapons of mass 
destruction, Iranian policy has essentially been characterized by total 
continuity. Iran continues to expand its arsenal of missiles and its 
civilian nuclear program--which most analysts believe is intended to 
serve as the foundation for a nuclear weapons program. Iran, likewise, 
continues to support groups that engage in terrorism, and it continues 
its attacks on oppositionists--though it seems at a reduced pace since 
Khatami's election. Finally, while Iran remains unremittingly hostile 
toward Israel, it is possible to discern perhaps the first faint signs 
of change with regard to Iran's approach to the Arab-Israeli conflict.
Weapons of Mass Destruction (WMD)
    Iran continues to devote significant resources to its WMD programs. 
\2\ Most notably, it has continued with efforts to build up its 
strategic missile forces, and it continues efforts to expand its 
civilian nuclear infrastructure, which it probably intends to use as a 
stepping stone to a nuclear weapons program.
---------------------------------------------------------------------------
    \2\ By contrast, Iran's conventional weapons procurement effort 
seems to have run out of steam. The last major conventional weapons 
system delivered to Iran was its third Kilo class submarine in January 
1997. This is not because Iran no longer feels the need to expand and 
modernize its conventional forces, but apparently because it believes 
that given current financial constraints, available funds are best 
spent augmenting its WMD and missile delivery capabilities.
---------------------------------------------------------------------------
    Iran has been trying since the mid-1980s to acquire a missile 
production capability, in order to end its reliance on external sources 
of supply. This effort was plagued by various bottlenecks, including a 
shortage of skilled personnel, special materials, technological 
expertise, and adequate financing. As a result, until recently, Iran 
had little success in creating an indigenous missile production 
capability. \3\
---------------------------------------------------------------------------
    \3\ Russian Foreign Intelligence Service (FIS), A New Challenge 
After the Cold War: Proliferation of Weapons of Mass Destruction 
(Moscow: FIS, 1993), in JPRS-TND, March 5, 1993, p. 29.
---------------------------------------------------------------------------
    This may be changing, however, thanks to aid provided by Russia, 
China, and North Korea during the past 3-4 years. This assistance 
includes equipment, machinery, components (including guidance systems), 
and special materials required to produce missiles. At present, Iran 
can produce Scud missiles domestically, \4\ and it is reportedly 
building two hybrid liquid-fuel systems with substantial help from 
Russia: the Shehab-3, based on the North Korean Nodong-1, is expected 
to have a range of 1,300km, while the Shehab-4, based on the Soviet SS-
4, is expected to have a range of 2,000km. In 1997, Iran conducted 6-8 
static ground tests of the motor for the Shehab-3, indicating that work 
has gone well beyond the design stage. According to leaked intelligence 
estimates, the Shehab-3 is likely to make its first test flight within 
1-2 years, and the Shehab-4 its maiden flight within about 3-4 years. 
\5\ Iran is also believed to be building a short-range solid-fuel 
missile known as the NP-110 (with a range of about 150km) with Chinese 
help. \6\
---------------------------------------------------------------------------
    \4\ DoD, Proliferation: Threat and Response 1997.
    \5\ Los Angeles Times, February 12, 1997, pp. A1, A6; Washington 
Times, September 10, 1997, p. A1; Washington Post, December 31, 1997, 
p. A1; Washington Post, January 18, 1998, p. A9.
    \6\ Defense News, June 19-25, 1995, p. 1; Washington Times, May 22, 
1997, p. A3; Washington Times, June 17, 1997, p. A3; Washington Times, 
September 10, 1997, p. A1.
---------------------------------------------------------------------------
    The introduction of these missiles will not transform the strategic 
landscape of the Persian Gulf region, since Iran's Arab neighbors 
already live under the shadow of its Scud-B and -C missiles. Their 
deployment will affect the security of other U.S. allies, as the 
capitals of Turkey and Egypt, and all of Israel, will now be in range 
of Iranian missiles, and could constrain US military options in a 
future crisis in the Gulf, if Tehran is able to deny the U.S. use of 
staging areas or bases in Egypt or Turkey through its ability to 
directly threaten these key allies.
    Iran's known nuclear technology base is at present rather 
rudimentary, although it is building an extensive civilian nuclear 
infrastructure that could serve as a springboard for a weapons program. 
In particular, its efforts to acquire nuclear research reactors, power 
plants, and fuel cycle-related facilities, its apparent investigation 
of various enrichment techniques (gas centrifuge enrichment in 
particular), and reports of Iranian efforts to obtain fissile material 
in the former Soviet Union have raised questions about Iran's 
intentions.
    Iran's strategy seems to be to build up its civilian nuclear 
infrastructure while avoiding activities that would clearly violate its 
NPT commitments, using its new contacts in Russia and China to gain 
experience, expertise, and dual-use technology that could assist in 
creating a military program. Tehran could probably acquire a nuclear 
capability within a few years if it were to obtain fissile material and 
help from abroad; without such help, it could take Iran 5 or 10 years--
and perhaps even longer--to do so. There is no doubt though, that the 
acquisition of research reactors, power plants, and nuclear technology 
from Russia and China will ultimately aid this effort. Without such 
outside help, Iran will probably face formidable obstacles to realizing 
its nuclear ambitions. \7\
---------------------------------------------------------------------------
    \7\ Michael Eisenstadt, Iranian Military Power: Capabilities and 
Intentions (Washington, D.C.: The Washington Institute, 1996), pp. 9-
25.
---------------------------------------------------------------------------
    Developments during the past year show that Iran's civilian nuclear 
program faces a number of formidable obstacles, but that it is 
continuing efforts to acquire nuclear fuel cycle related technologies 
from Russia and China.
    Shortly after President Khatami's inauguration last August, he 
appointed Oil Minister Gholamreza Aghazadeh to head the Atomic Energy 
Organization of Iran (AEOI). Aghazadeh's predecessor, Reza Amrollahi, 
was widely regarded as incompetent, and it was feared that Aghazadeh--
generally regarded as a competent administrator at the oil ministry--
might revitalize the effort. Upon taking his new job, Aghazadeh 
announced that he intended to continue Iran's civilian nuclear program, 
with the purchase of several new reactors following the completion of 
the one currently under construction at Bushehr. (This new order 
reportedly would include two 300 MWe units from China, possibly to be 
located at Darkhovin, and two 440 MWe units and another 1000MWe unit 
from Russia, to be located at Bushehr.) \8\
---------------------------------------------------------------------------
    \8\ Reuters, October 3, 1997.
---------------------------------------------------------------------------
    Bushehr, however, continues to experience problems. The program is 
behind schedule, and Russia recently announced that it would take over 
parts of the project previously run by Iran, to prevent the project 
from falling further behind schedule. Current estimates of the 
anticipated completion date vary between 2000-2003. \9\ Bushehr 
suffered an additional setback when the U.S. prevailed upon the Ukraine 
earlier this year to agree not to transfer turbines for the reactor. 
These can be manufactured in Russia, but production facilities there 
will need to be retooled to do so, imposing additional costs and delays 
to construction. \10\
---------------------------------------------------------------------------
    \9\ Washington Post, February 22, 1998, p. A30.
    \10\ Washington Post, February 8, 1998, p. A25; New York Times, 
March 7, 1998, p. A3.
---------------------------------------------------------------------------
    There are also disturbing signs that both China and Russia are 
prepared to renege on recent commitments to the U.S. concerning nuclear 
technology transfers to Iran. In January 1998, the U.S. reportedly 
obtained intelligence indicating that Iran and China had discussed the 
transfer of a uranium conversion plant to Iran, despite the fact that 
China's President Jiang Zemin promised President Bill Clinton last 
October that China would cease all nuclear cooperation with Iran. China 
reportedly quashed the deal after Washington protested to Beijing. \11\ 
Recent press reports likewise indicate that Russia may still be 
considering selling Iran a 40MWt research reactor and a gas centrifuge 
enrichment facility included in a January 1995 nuclear cooperation 
accord with Iran. \12\ Russia had signaled the U.S. in a May 1995 
summit between Presidents Boris Yeltsin and Bill Clinton that it would 
not go forward with these components of the accord, after the U.S. had 
pressed Russia on this issue. These transfers would significantly 
augment Iran's civilian nuclear infrastructure, and could contribute to 
Iran's efforts to acquire a nuclear weapons capability.
---------------------------------------------------------------------------
    \11\ Washington Post, March 13, 1998, p. A1; Washington Times, 
March 13, 1998, p. A1. What is particularly disturbing about this is 
that China had promised the U.S. one or two years prior to this 
incident that it would cancel the conversion plant deal.
    \12\ Ha'aretz, February 18, 1998; Washington Times, May 7, 1998, p. 
A1.
---------------------------------------------------------------------------
    It is also worth noting that in January 1998, Iran formally joined 
the CWC, which obligates it to declare its inventories of chemical 
weapons within 30 days and to destroy them within 10 years. Iran has 
not yet submitted its declaration yet (many other countries--including 
the U.S.--also have not), though it seems inconceivable that Iran would 
give up a potentially important tactical force multiplier and the core 
component of its strategic deterrent while Iraq may still retain a 
chemical and biological warfare capability. It will be interesting to 
see how Iran handles this issue, which will be a key indicator of its 
willingness to meet its international arms control commitments.
    In this regard, remarks two weeks ago by Iranian Revolutionary 
Guard Corps (IRGC) commander Yahya Rahim Safavi during a closed meeting 
with IRGC naval officers--leaked to the Iranian press--have raised 
unsettling questions about the willingness of at least some 
conservative hard-liners to adhere to Iran's arms control commitments. 
In his comments, Safavi reportedly asked his audience rhetorically: 
``Can we withstand American threats and domineering attitude with a 
policy of detente? Can we foil dangers coming from America through 
dialogue between civilizations? Will we be able to protect the Islamic 
Republic from international Zionism by signing conventions to ban 
proliferation of chemical and nuclear weapons?'' \13\ The fact that is 
was Safavi who made these disparaging comments about the Chemical 
Weapons Convention (CWC) and the Nuclear Nonproliferation Treaty (NPT) 
is particularly important. The IRGC is believed to be in charge of 
Iran's chemical, biological, and nuclear weapons programs, and its 
operational chemical and biological weapons inventories and missile 
forces. His opinions on these matters carry great weight, and Safavi is 
therefore likely to have some--perhaps a decisive--impact on Iranian 
decisionmaking pertaining to the CWC and NPT. In both cases, it would 
seem that Safavi's preference would be to clandestinely circumvent 
these treaties, one way or another. It remains to be seen if he will 
carry the day.
---------------------------------------------------------------------------
    \13\ AFP, April 29, 1998; Reuters, April 30, 1998.
---------------------------------------------------------------------------
Terrorism and Opposition to the Arab-Israeli Peace Process
    Despite some positive public statements, Iran continues to support 
groups engaged in terrorism, and to assassinate opponents of the 
clerical regime. Since President Khatami's election, several senior 
officials have condemned terrorism. In November 1997, Foreign Minister 
Kamal Kharazzi condemned a terrorist attack by Egypt's Islamic Group on 
tourists; in early January 1998 Foreign Ministry spokesman Mahmoud 
Mohammadi condemned attacks on civilians in Algeria; and President 
Khatami condemned attacks on innocent civilians, including Israelis, in 
his January CNN message to the American people. These are all positive 
steps. \14\
---------------------------------------------------------------------------
    \14\ Department of State, Patterns of Global Terrorism 1997. In his 
CNN interview, Khatami stated that ``any form of killing of innocent 
men and women who are not involved in confrontations is terrorism'' and 
that ``terrorism should be condemned in all its forms.'' CNN, January 
7, 1998.
---------------------------------------------------------------------------
    However, Iran still funds, trains, and arms groups that engage in 
terrorism; senior Iranian officials continue meeting with 
representatives of terrorist groups such as Islamic Jihad, Hamas, and 
Hezbollah (Khatami himself met with Hezbollah Secretary General Hassan 
Nasrallah in Tehran one month before Hezbollah tried infiltrating a 
suicide bomber into Israel); Iranian intelligence continues to stalk 
American personnel in Bosnia, the Persian Gulf, and Tajikistan, to gain 
information that would be needed for terrorist attacks on Americans, 
and perhaps to send a message to the U.S. that they can target American 
interests should they decide to do so; and Tehran continues to attack 
opponents of the regime. \15\
---------------------------------------------------------------------------
    \15\ Washington Times, December 9, 1997, p. A6; Hillary Mann, 
``Iranian Links to International Terrorism--The Khatami Era,'' 
PolicyWatch no. 269, January 28, 1998. IRGC chief Safavi implied that 
Tehran was capable of conducting terrorism on a global basis when he 
declared in an September 1997 speech that the IRGC and its Basij 
militia were prepared to respond to foreign aggression by retaliating 
not just in the Persian Gulf region, but around the world. IRNA, 
September 19, 1997, in FBIS-NES-97-262, September 22, 1997.
---------------------------------------------------------------------------
    In recent years, Iran has generally restricted attacks on 
oppositionists to northern and central Iraq. This marks the continued 
evolution in Iranian policy since the early-to-mid 1990s away from high 
profile terrorist actions in the heart of Europe (which had a harmful 
impact on Iranian relations with countries such as France and Germany) 
toward less conspicuous acts in less politically sensitive locations. 
It also shows that Iran is sensitive to the political costs of its 
involvement in terrorism, and that it may be possible to alter Iranian 
policy in this area. Another hopeful sign is the apparent decrease in 
attacks on oppositionists since Khatami's election. According to one 
U.S. government official, of the thirteen or so assassinations that 
occurred in 1997, at least two occurred after Khatami's inauguration. 
\16\ While it is distressing that these activities continue, it is 
important to note this figure; hopefully this trend will continue this 
year and Tehran will move to curtail its involvement in terrorism 
across-the-board. This has not yet happened.
---------------------------------------------------------------------------
    \16\ According to a wire service report released in early January 
1998, eight Iranian dissidents were murdered abroad since Khatami's 
inauguration in August 1997 (eleven in all of 1997), compared to eight 
in all of 1996. AP, January 9, 1998. By comparison, the Department of 
State's Patterns of Terrorism 1997 claims that ``Tehran conducted at 
least 13 assassinations in 1997, the majority of which were carried out 
in northern Iraq.'' Information about trends for the first half of this 
year are unfortunately not yet available.
---------------------------------------------------------------------------
    Iran continues to arm and train the Lebanese Hezbollah 
organization, which has engaged in terrorist attacks on Jewish and 
Israeli targets in the past, including the bombing of the Israeli 
embassy in Buenos Aires in March 1992, an attempt to infiltrate a 
terrorist into Israel to plant a bomb on an Israeli airliner in April 
1996 (who was critically injured when his bomb exploded prematurely in 
his hotel room), and most recently, an attempt to infiltrate another 
bomber into Israel in November 1997 (following Khatami's inauguration, 
it should be noted). \17\
---------------------------------------------------------------------------
    \17\ This most recent attempt involved a German convert to Islam, 
Stefan Josef Smyrek, who had undergone military training with Hezbollah 
in Lebanon. Washington Times, December 26, 1997, p. A13.
---------------------------------------------------------------------------
    In the past, Iranian intelligence personnel have been involved 
directly in terrorist attacks in Israel and on Israeli interests. Iran 
is believed to have at least had foreknowledge of the Hezbollah bombing 
of the Israeli embassy in Buenos Aires in March 1992 and the attempt to 
infiltrate a bomber into Israel in April 1996, and may have been 
actively involved in both incidents. \18\ Moreover, Iranian 
intelligence operatives have been implicated in an attempt to bomb the 
Israeli embassy in Bangkok in March 1994, the bombing of a Jewish 
community center in Buenos Aires in July 1994, and attempts to incite 
Jordanians to attack Israeli tourists in that country in December 1995. 
\19\ Iran is not known to have been associated with any such attempts 
since President Khatami's election. On the other hand, Iran's continued 
refusal to cooperate with Argentina's investigation of the 1992 and 
1994 bombings have led to a deterioration in relations between the two 
countries in recent days.
---------------------------------------------------------------------------
    \18\ Department of State, Patterns of Global Terrorism 1992, p. 22; 
New York Times Magazine, November 10, 1996, p. 45.
    \19\ The Iranian arrested for attempting to bomb the Israeli 
embassy in Bangkok was sentenced to death by a Thai court in July 1996. 
AFP, June 10, 1996. The cultural attache at Iran's embassy in Buenos 
Aires--who is also the prayer leader of a local mosque--is believed to 
have played a central role in the bombing of the Jewish community 
center. He was declared persona non grata after leaving Argentina in 
1997. New York Times, May 17, 1998, p. A15. The Iranian diplomat who 
had incited Jordanians to attack Israeli tourists was expelled from 
Jordan in December 1995. Mideast Mirror, December 11, 1995, p. 11.
---------------------------------------------------------------------------
    It is worth noting that some U.S. government intelligence analysts 
believe that Khatami and his supporters ``wish to change Iranian policy 
with regard to terrorism . . . in a direction that would relieve some 
of the impediments to improved relations between Iran and western 
countries'' but he has been unable to do so because he does not control 
the relevant levers of power in Tehran. \20\ Clearly, the U.S. has to 
base its policy on the actions of Iran's government, and not the words 
or the inferred desires of its President or other senior officials, but 
developments in this area bear careful watching, as this might be the 
first area where a change in Iranian policy concerning the three issues 
of primary concern to the U.S. (terror, opposition to the Arab-Israeli 
peace process, and WMD) could become manifest.
---------------------------------------------------------------------------
    \20\ Washington Post, May 5, 1998, p. A9.
---------------------------------------------------------------------------
    Iranian leaders from Khatami to Khamene'i continue to show 
unremitting hostility toward Israel in their public utterances, and 
there is little difference between them in this regard. However, Iran's 
approach toward the Arab-Israeli peace process and the possibility of 
an Israeli withdrawal from Lebanon has changed somewhat since Khatami's 
election. In a meeting during the December 1997 Islamic Conference 
Organization summit in Tehran, Khatami reportedly indicated to Yasser 
Arafat that while he had little faith that the Madrid process would 
produce a lasting Arab-Israeli peace, Iran was prepared to accept any 
terms that the PLO agreed to, and that it would not actively oppose or 
seek to undermine a peace agreement. \21\ Khatami struck this general 
theme during his CNN interview, stating that ``We have declared our 
opposition to the Middle East peace process [but] we do not intend to 
impose our views on others or to stand in their way.'' \22\ However, 
given the difficulties that the peace process is currently facing, it 
seems unlikely that this Iranian commitment will be tested anytime 
soon. More recently, Foreign Minister Kamal Kharazzi indicated that if 
Israel withdrew from Lebanon, ``the aims of the resistance would have 
been achieved in reality.'' \23\ In the past, Iranian officials would 
have welcomed an Israeli withdrawal as a first step on the road to the 
liberation of Jerusalem. In this light, Kharazzi's recent statement is 
worth noting, though it could be seen as a simple statement of fact, 
that does not speak to what would happen after an Israeli withdrawal--
which will be determined first and foremost by Hezbollah, and not Iran 
(though Tehran could certainly influence such a decision).
---------------------------------------------------------------------------
    \21\ Los Angeles Times, January 30, 1998, p. A6.
    \22\ CNN, January 7, 1998. It should be noted, however, that former 
President Rafsanjani made a similar promise in 1994, saying that ``we 
do not wish to intervene in practice and physically disrupt the [Arab-
Israeli peace] process,'' at the same time that Iran provided 
political, economic, and military support to Lebanese and Palestinian 
groups opposed to the peace process. Mideast Mirror, June 8, 1994, p. 
15.
    \23\ Reuters, March 30, 1998.
---------------------------------------------------------------------------
Implications for U.S. Policy
    U.S. policy toward Iran since the 1979 revolution can claim both 
accomplishments and failures. The most significant accomplishment 
relates to Washington's success in curbing Tehran's ability to threaten 
U.S. allies and interests, by denying Iran access to arms and 
technology, and the hard currency necessary to fund such arms and 
technology transfers. U.S. pressure, diplomatic demarches, and 
interdiction operations have thwarted several major conventional arms 
deals and countless smaller ones; \24\ cut Iran off from Western arms 
and technology sources--forcing it to rely on less advanced suppliers 
such as North Korea, China, and Russia; and hindered procurement of 
spare parts for its armed forces, thereby making it more difficult for 
Tehran to maintain its existing force structure. This has made Tehran 
very careful to avoid a confrontation with the U.S. that could lead to 
losses that it knows it could neither absorb nor afford to replace.
---------------------------------------------------------------------------
    \24\ Most recently, in October 1997, the U.S. purchased some 21 
MiG-29 fighters from Moldova to prevent their purchase by Iran. 
Washington Post, November 5, 1997, p. A23; New York Times, November 5, 
1997, p. A1.
---------------------------------------------------------------------------
    Moreover, Iran's economic woes--which have been exacerbated by U.S. 
sanctions--have forced it to cut military procurement since 1989 by 
more than half \25\ and delayed its efforts to acquire conventional 
arms and WMD. Lacking the funds to sustain a major, across-the-board 
military build-up, Iran has had to content itself with selectively 
enhancing its military capabilities. Continuing these efforts to deny 
Tehran loans, credit, and hard currency at a time of economic distress 
caused by low oil prices, high debt service obligations, and heightened 
expectations of socio-economic change, will compel Iran to continue to 
spend more on butter than guns in the coming years.
---------------------------------------------------------------------------
    \25\ According to one U.S. Government estimate, Iranian foreign 
exchange expenditures on arms dropped from a high of $2 billion in 1991 
to less than $1 billion in 1997. Bruce Riedel, ``U.S. Policy in the 
Gulf: Five Years of Dual Containment,'' PolicyWatch no. 315, May 8, 
1998, p. 2.
---------------------------------------------------------------------------
    President Khatami's election and his opening to the American 
people, however, have significantly altered the rules of the game and 
greatly complicated Washington's calculations in a way that will 
require the U.S. to modify its approach toward Iran. Washington will 
need to muster a degree of sophistication, restraint, and subtlety that 
has been largely lacking in U.S. policy toward Iran until now if it is 
to avoid the dangers and grasp the opportunities created by these new 
circumstances. Past efforts to deny Iran arms, technology, and funds 
have yielded a number of important achievements, and such efforts--
including economic sanctions--should continue. However, the U.S. can no 
longer rely exclusively on such measures. In formulating its policy 
toward Iran, the U.S. needs to formulate its policy toward the Iranian 
government with an eye toward how its actions affects its standing in 
the eyes of the Iranian people, and its relations with the Gulf Arabs 
and its Western European allies.
    Most Iranians like Americans and admire the U.S. and what it stands 
for. This reservoir of good will is a precious American asset that must 
not be squandered. And because the Iranian people is the main engine 
for political change in the country, it is a source of leverage over 
the Iranian government. The potential offered by this leverage was most 
clearly manifested by President Khatami's CNN address to the American 
people, which more than anything else was a nod to popular opinion in 
Iran, which strongly favors normalizing relations with the U.S..
    Moreover, to the degree that the recent Saudi-Iranian rapprochement 
was motivated by a Saudi desire to distance itself from the U.S. 
following the Khobar Towers bombing--to avoid being caught in the 
middle of an Iranian-American clash--efforts to reduce tensions with 
Tehran would reassure some of our Arab Gulf allies that we are in fact 
not headed toward confrontation with Iran. This is crucial, since 
ongoing efforts to contain Iran will require the continued cooperation 
of America's Arab allies in the Gulf.
    Finally, demonstrating a willingness to increase contacts with the 
Iranian people and its readiness to reestablish official contacts with 
Tehran would strengthen America's case with its European allies, since 
it would demonstrate that U.S. policy toward Iran is not driven by 
domestic politics, and that the U.S. is eager to test Iranian 
intentions. This would better enable the U.S. to make the case to its 
European allies that dialogue and pressure can go hand-in-hand.
    On the other hand, it would be a severe setback for U.S. policy if 
the Iranian government could make a credible case to the Iranian people 
and to our Arab Gulf and Western European allies, that the U.S. has 
spurned President Khatami's call for a dialogue between peoples and 
other Iranian gestures. Small, tangible steps by Washington to relax 
tensions with Tehran would thus help the U.S. test Iranian intentions 
and maintain the momentum of such efforts, and just as importantly, 
avoid an erosion in its standing with both the Iranian people and key 
allies. Moreover, through its actions, the U.S. must make it clear to 
the Iranian people that it is their government that is the main 
obstacle to increased contact and better relations between the two 
countries. This could lead to additional pressure for change in Tehran.
    What does this mean in terms of specific policy recommendations? 
First, with regard to the Iran-Libya Sanctions Act, the U.S. should 
avoid issuing a determination of sanctionability regarding the Total 
deal for as long as possible, to maintain the deterrent value of the 
legislation vis-a-vis additional investments, avoid a fight with the 
Europeans, and avoid the appearance of responding to Khatami's opening 
to the American people with what could be perceived or portrayed as a 
slap in the face.
    Second, in responding to the new circumstances in Iran, the U.S. 
should be flexible in areas where it can afford to, while continuing to 
maintain pressure--through sanctions and other means--in areas where it 
needs to (specifically with regard to terrorism, the Arab-Israeli peace 
process, and WMD). There are several ``easy'' things that Washington 
can do to indicate its desire to reduce tensions with Tehran and signal 
its support for the Iranian people that would not cost it a thing, and 
would in fact advance its interests:

  <bullet> Streamline visa application procedures to reduce obstacles 
        for Iranians who want to visit the U.S., to the degree that 
        this is consistent with U.S. security concerns. Consider 
        stationing a consular official in Tehran to facilitate this 
        process.
  <bullet> Remove Iran from the list of major illicit-drug producing or 
        transit countries if the facts merit such a step, in 
        recognition of Iran's efforts in this area.
  <bullet> Ensure that the new Farsi language service of Radio Free 
        Europe/Radio Liberty adheres to factual, critical reporting 
        without engaging in gratuitous and provocative bashing of the 
        regime in Tehran.
  <bullet> Support efforts to intensify people-to-people contacts 
        involving, for instance, artists, agricultural and medical 
        specialists, and American non-governmental policy analysts who 
        are broadly supportive of U.S. policy in the region.
  <bullet> Consider an extended television address by President Bill 
        Clinton to the Iranian people along the lines of Khatami's 
        January CNN interview.
  <bullet> Though Tehran's human rights policies are no longer an 
        official U.S. ``subject of concern'' (as are terrorism, efforts 
        to obstruct the peace process, and WMD), the U.S. should 
        continue to stress the importance of improvements in this area 
        in its public diplomacy.

    Finally, Russia and China have demonstrated repeatedly a disturbing 
tendency to violate commitments made to the U.S. by transferring 
sensitive arms and technology to Iran when they apparently believe that 
they can get away with it. Therefore, sanctions that punish Russian and 
Chinese companies that engage in such transfers, and that deny Iran the 
hard currency required to fund these transactions, will have to remain 
an essential component of U.S. policy toward Iran for the foreseeable 
future.

    Senator Robb. (presiding) Thank you, Mr. Eisenstadt. The 
chairman was given plan 3, which was like plan 1, which means 
he had to go to the floor. I agreed to remain in my post and 
continue to take testimony so that we would not in effect be 
jerking you back and forth in terms of timing and perhaps delay 
other commitments you might have Mr. Emerson, would you 
proceed?

   STATEMENT OF STEVEN EMERSON, MIDDLE EAST AFFAIRS ANALYST, 
         AUTHOR AND TERRORISM EXPERT, WASHINGTON, D.C.

    Mr. Emerson.  Thank you very much.
    Ever since the election of Muhammad Khatami as president in 
May 1997 the world has been debating the meaning of his victory 
and the significance of his statements and actions. Has Iran's 
support for terrorism diminished? How has Khatami affected the 
Iranian terrorism apparatus, and has there been any 
quantifiable, measurable change in the conduct of Iran? What 
can we say, if anything, about Khatami and the effect of 
American sanctions over this past year on his personal effects 
in Iran?
    The new openness and bold expressions of dissent seem to 
have been bursting at the seams in the Iranian society. It is 
very, very encouraging, and something very welcome to the West. 
There have been public statements issued by President Khatami 
that, relative to other statements by others in Iran have 
sounded soothingly moderate, particularly to western ears 
accustomed to the steady drumbeat of the demonization of the 
West.
    Although President Khatami may, and I emphasize may, be the 
first Iranian leader since the revolution to seek a genuine 
accommodation with the United States, the fact remains that he 
does not speak for nor represent the other domains of power in 
the Iranian regime, whose support for anti-American and 
antiwestern policies remains a staple of the Islamic 
revolutionary identity.
    As the United States grapples with the genuine policy 
conundrum of how best to encourage Khatami and other moderate 
forces, the enthusiasm bred by the prospect of engaging in a 
dialog with a postrevolutionary leader, if we can call him 
that, must not blind us to the realities that the Iranian 
terrorist apparatus is very much alive, intact, and presently 
engaged in supporting acts of terrorism and violence against 
the United States and our European allies.
    Iran continues to fund and train members of the Hamas and 
Palestine Islamic Jihad in carrying out mass terrorist 
operations and planning them against Israeli civilians. Iran 
has recently, in the last 7 months, developed a network of 
militant recruits in Jordan designed and orchestrated to attack 
Jordanian, Israeli, and other targets.
    Iran continues to operate training camps for terrorists in 
Iran for attacks against United States targets in the Persian 
Gulf and against pro-western Arab regimes.
    Iran has provided weapons and training to the vast network 
of growing Hizbollah terrorist infrastructure now operating in 
Jordan, Saudi Arabia, Bahrain, as well as Europe, Asia, and 
even North America.
    Iran's extensive network of front companies, religious 
organizations, student groups, throughout the western countries 
continue to collect intelligence, carry out surveillance, 
threaten or attack Iranian dissidents, prepare for future 
terrorist operations, and acquire illicit advanced technology 
for Iran's chemical, biological, and nuclear programs.
    Tehran continues to serve as a central meeting place and 
sanctuary for top Middle Eastern terrorist leaders, and 
finally, Iran continues to affirm the death sentence and bounty 
against the writer, Salman Rushdie.
    Iranian agents have been implicated in the deaths of 
Americans abroad, and they continue to work in the senior 
levels of Iranian Intelligence. Ahmad Sherifi, a senior Iranian 
Intelligence officer and a top official in the Revolutionary 
Guard, met with Hani Abd Rahim Sayegh, the alleged getaway 
driver in the Khobar bombing in Saudi Arabia which killed 19 
American servicemen. Sherifi reportedly met with Sayegh in Qom, 
Iran, and later met with him in Damascus.
    Sherifi also recruited members for the military wing of 
Hizbollah-Bahrain in Qom, and later wrote checks to Bahraini 
members of Hizbollah.
    The notion of Iran's support for terrorism is something 
that we must keep at the fore, despite any attempts to be 
lulled into a sense that there is a new postrevolutionary Iran. 
Iran provides direct military and financial supplies to the 
Hizbollah, as well, in Southern Lebanon for attacks against 
Israel, attacks against Jordan, as well as Hizbollah operators 
in Europe and South America.
    One of the vehicles, the primary vehicles, is through 
weapons flows to Hizbollah in Lebanon. The precise amount that 
Iran provides is probably impossible to ascertain, but most 
reliable intelligence estimates claim that the yearly subsidy 
between Iran and Hizbollah in Lebanon is between $75 and $150 
million.
    Iranian military supplies are usually delivered through an 
air bridge through Damascus. According to western intelligence, 
more than 50 military supply flights were conducted from Iran 
to Syria in October 1997 alone. There were up to 11 terrorist 
training camps operating in Iran during the past year, where 
militant volunteers from around the Middle East have 
participated in operational training.
    Iran support to Hamas and Jihad continues unabated, and 
continues to this very day. Just 2 weeks ago, Sheikh Ahmed 
Yassin, the leader of Hamas, was entertained in Iran where he 
received promises of support, military and financial, from the 
Iranian leadership.
    I would say that in the end we face the prospect of maybe 
changing our policy, but the bottom line is that the U.S. 
should not change its overall policy, its sanctions against the 
regime, at this point. We should perhaps approach a policy of 
what I call incremental reciprocity, exchanging ad hoc economic 
and political incentives for demonstrable changes in Iran's 
support for terrorism.
    The economic sanctions thus far have caused serious 
dislocations to the Iranian economy, which have, in fact, bred 
mass discontent, which have led, in turn, to the election of 
President Khatami. Loosening of these sanctions at this point 
would only result in the resolidification of the power base of 
the radicals.
    Thank you very much.
    [The prepared statement of Mr. Emerson follows:]

                  Prepared Statement of Steven Emerson

      tehran and terrorism: iran under president muhammad khatami
    Ever since the election of Muhammad Khatami as President of Iran in 
May 1997, the world has been debating the meaning of his victory and 
the significance of his statements and the actions of the Iranian 
government. Has Iran's support for terrorism diminished? How has 
Khatami affected the Iranian terrorist apparatus? Has there been any 
quantifiable change in the conduct of Iran? And what if anything can we 
say about Khatami and the effect of American sanctions and the policy 
of containment?
    To be sure, an increasingly robust public debate has emerged in 
Iran under President Khatami over the future direction of Iran, 
although the debate is almost exclusively focused on internal politics 
and economics. Sometimes, the debate has unfolded directly on the 
merits of Iranian policies, but more often has become translated into 
bitter proxy fights fought by indictments, riots, and allegations of 
impropriety and religious infidelity. The election of Khatami himself 
seemingly heralded a new willingness to challenge the conservative 
religious monopoly under the existing revolutionary regime of Ayatollah 
Ali Khamene'i in the area of social policy and market economy.
    The new openness and bold expressions of dissent--in reality a 
hallmark of traditional Iranian independence--seems to have been 
bursting at the seams of society, churning beneath the repressive 
religious and social chains imposed during the past 18 years. New 
publications, books, radio programs, importation of foreign 
periodicals, and even previously banned films have suddenly surfaced in 
a society desperate for intellectual diversity and challenges. And 
there have been several public statements issued by President Khatami 
that, relative to others, have sounded soothingly moderate, 
particularly to Western ears accustomed to the steady drumbeat of the 
demonization of the West and its culture.
    But in the end, a comprehensive assessment of the policies of the 
Iranian government in the past year shows that support for 
international terrorist organizations, particularly Hizbollah, Hamas, 
Islamic Jihad, and the Sudanese National Islamic Front, has not abated. 
Indeed, Iran has continued to provide financial and military support to 
these terrorist groups while simultaneously operating its clandestine 
intelligence gathering apparatus, front organizations, and false flag 
agents of influence in the Middle East, Western Europe, the old Soviet 
republics, and even North America.
    Although President Khatami may be the first Iranian leader since 
the revolution to seek a genuinely sincere accommodation with the U.S., 
the fact remains that he does not speak for nor represent the other 
domains of power in the Iranian regime where support for anti-American 
and anti-Western policies remains a staple of their Islamic 
Revolutionary identity. As the U.S. grapples with a genuine policy 
conundrum as how best to encourage Khatami and other moderate forces in 
Iran, the enthusiasm bred by the prospect of engaging in a dialogue 
with a post-Revolutionary leader ought not blind us to the realities 
that the Iranian terrorist apparatus is alive, intact, and presently 
engaged in supporting acts of terrorism and anti-Western and anti-
American radicalism in many parts of the world.
    Khatami's own views and policies on militant Islamic terrorism are 
now the subject of major debate in the U.S. intelligence community. Is 
he a genuine moderate, seeking a historical reconciliation with the 
U.S.? Or is he merely a pragmatist, aware that Iranian economic and 
cultural isolation bred by the mullahs' ideological anti-American 
fervor has perpetually doomed Iran to economic ruin? Even a critical 
examination of the statements made by President Khatami himself 
suggests that he still feels compelled to occasionally echo radical 
sentiments that reflect an unremitting hatred of Israel, pro-Western 
American policies and culture. How should we evaluate these statements? 
Are Khatami's radical statements merely designed to protect his power 
base as he singularly charts a new moderate course? Or is Khatami's 
posture reflective of a calculated effort to lull the U.S. into a fall 
sense of security--to drop the sanctions and relax the prohibitions on 
investment and trade?
    Nevertheless, even if we extend Khatami the benefit of the doubt 
and accept as genuine views that Iran must stop its avowed 
fundamentalist war with the U.S., the Iranian terrorist apparatus is on 
automatic pilot.

  <bullet> Iran continues to fund and train members of the Hamas and 
        Palestine Islamic Jihad in carrying out mass terrorist 
        operations against Israeli civilians.
  <bullet> Iran has recently developed a network of militant recruits 
        in Jordan to attack Jordanian and Israeli targets.
  <bullet> Iran continues to operate training camps for terrorists in 
        Iran for attacks against U.S. targets in the Persian Gulf and 
        against pro-Western Arab regimes such as Saudi Arabia and 
        Jordan.
  <bullet> Iran has provided weapons and training to the vast network 
        of growing Hizbollah terrorist infrastructure now operating in 
        Jordan, Saudi Arabia, and Bahrain, as well as in Europe and 
        Asia.
  <bullet> Iran's extensive network of front groups of religious 
        organizations, student groups, and front companies operates 
        throughout Western countries in collecting intelligence, 
        carrying out surveillance, threatening and attacking Iranian 
        dissidents, preparing for future terrorist operations, and 
        acquiring illicit advanced technology for Iran's chemical, 
        biological, and nuclear programs. Iranian agents and surrogates 
        help recruit and operate terrorist cells in the West.
  <bullet> Tehran continues to serve as a central meeting place and 
        sanctuary for Middle Eastern terrorist leaders.
  <bullet> Iran continues to affirm the death sentence and bounty 
        against the writer Salman Rushdie.
    It is a matter of historical fact that the Islamic Republic in Iran 
has used terrorism as an element of its foreign policy since its birth 
in 1979. \1\ Iran's ties to terrorist groups exist on multiple levels. 
The Iranian revolution has served as an example for Islamic extremists 
who wish to create Islamic republics in their homelands. Iran provides 
material support and trains operatives of several terrorist groups, 
including the Palestinian Islamic Jihad, Hamas, and Hizbollah. The list 
enumerating Iran's hand in some of the most horrific terrorist attacks 
is unparalleled: the bombing of Marine Barracks in 1983 in Beirut 
killing 241 Marines; the bombing of the U.S. Embassy and Consulate in 
Beirut in 1983 and 1984; the kidnapping and execution of American 
hostages in Lebanon; the hijacking of American planes; multiple suicide 
bombings against Israeli civilian targets; assassination of scores of 
Iranian dissidents in Europe and the Middle East; and deadly bombings 
of American facilities in Saudi Arabia.
---------------------------------------------------------------------------
    \1\ The International Policy Institute for Counter-Terrorism 
Internet Site (www.ict.org.il).
---------------------------------------------------------------------------
    Iranian agents have directly engaged in political assassinations. 
For instance, the 1997 annual State Department Report on International 
Terrorism reports Iran conducted at least 13 assassinations last year, 
mostly against opposition figures in northern Iraq. Sometimes, Iranian 
agents use other groups or agents to conduct terrorist attacks, as it 
did in carrying out the assassination of four Kurdish leaders in the 
Mikonos restaurant in Germany in 1992.
    Iranian agents who have been implicated in the deaths of Americans 
abroad continue to work in Iranian intelligence. Ahmad Sherifi, a 
senior Iranian Intelligence officer and a top official in the 
Revolutionary Guard, met with Hani Abd Rahim Sayegh, the getaway driver 
in Khobar bombing in Saudi Arabia, which killed 19 American Servicemen 
in 1996. Sherifi reportedly met Sayegh in Qom, Iran, and later met with 
him in Damascus, Syria. Sherifi also recruited members for the military 
wing of Hizbollah-Bahrain in Qom, and later wrote checks to these 
Babrainis, drawn from a Revolutionary Guard bank account in Iran. \2\ 
Sherifi still maintains his position in Iranian Intelligence.
---------------------------------------------------------------------------
    \2\ Washington Post, April 13, 1977.
---------------------------------------------------------------------------
    The importance of terrorism as a foreign policy tool in Iran is 
demonstrated by the fact that Tehran has an organizational frame-work 
set-up to handle terrorist activities. \3\ There are officials in the 
Vevak, the Iranian intelligence apparatus, specifically assigned to 
handle ties with terrorist groups. Iran has special terrorist units, 
like the ``Jerusalem Forces,'' also known as the Al-Quds Army, that 
operate in the field.
---------------------------------------------------------------------------
    \3\ Former Iranian President, Abol Hassan Bani Sadr, says there are 
17 organizations in Tehran, located in different ministries that are 
directly involved in terrorism (Jane's Intelligence Review, November 1, 
1997).
---------------------------------------------------------------------------
    The government's support for terrorism is so deeply ingrained that 
it would take a monumental shift to change the status quo. Based on the 
critical balance of power between Khatami and the more conservative 
mullahs who continue to run most sectors of the government as well as 
control collection and distribution of funds, Khatami does not appear, 
at this time, to have the power necessary to alter Iran's foreign 
policy. Yet, the popular support Khatami has received for his free 
market approach to the introduction of intellectual ideas into Iran has 
galvanized major pockets of supporters among the population, further 
solidifying the startling 70 percent majority he garnered in the May 
1997 election.
    Khatami's ascendancy to the Presidency has been accompanied by a 
wave of optimistic speculation that he truly represents the genuine 
Iranian moderate that the U.S. has searched for so long--sometimes 
sought so desperately, as during the Iran-contra scandal--that American 
policymakers have confused moderation with pragmatism with tragic 
consequences. Yet, Khatami's portrayal as a moderate Iranian cleric who 
desires some type of break with the existing anti-American identity of 
Islamic Republic is not without some justification, although some of 
the new U.S. advocates of dropping the ``Iran containment'' policy are 
making leaps of faith that could prove counter-productive and dangerous 
to U.S. national security if implemented.
    Khatami's interview with CNN's Christianne Amanpour this past 
January was highly publicized, and sparked debate about whether the 
Clinton administration should engage Iran in talks. While Khatami may 
indeed represent a reformist trend among Iran's clerical elite, his 
ability to make major changes in his nation's foreign policy is at best 
minimal. He can only tinker with the system, particularly when it comes 
to foreign policy. Any real changes in policy would have to get the 
explicit permission of Ayatollah Khamene'i, the ruling cleric, and the 
real power behind the government who openly champions the need to 
attack the U.S. as the rudimentary philosophy of Iran. \4\
---------------------------------------------------------------------------
    \4\ Shirley, Edward G., ``Good Mullah, Bad Mullah,'' The Weekly 
Standard, January 19, 1998.
---------------------------------------------------------------------------
    Today's hearings attest to the fact that the U.S. is looking for an 
opening, no matter how small it may be, to the Islamic Republic. 
However, my research shows that the Iranian government has not altered 
its long-standing support for Islamic terrorist groups. In its outlook 
and practice, the regime in Tehran continues to view terrorism as a 
legitimate arm of its foreign policy. Indeed, Iran's leadership appears 
to have made a strategic decision to expand contacts with terrorist 
groups, especially among Sunni militants. As a regime facing 
overlapping, competing, and parallel centers of political, religious, 
and military power, Iranian support for terrorism is more a product 
today of a multi-compartmented government than a singular integrated 
regime. Yet, even accounting for the competing spheres of influence, 
Iranian support for exporting the Islamic fundamentalist revolution is 
so ingrained at all levels that it is unlikely that Khatami will turn 
out to be the Iranian Gorbachev.
Iran and Hizbollah
    In its attempt to export its Islamic revolution throughout the 
region of the Middle East, Iran provided support to the Hizbollah (The 
Party of God) organization in Lebanon. The Department of State's 
Patterns of Global Terrorism 1997 describes Hizbollah as a ``radical 
Shi'a group formed in Lebanon; dedicated to creation of Iranian-style 
Islamic republic in Lebanon and the removal of all nonIslamic 
influences from area. Strongly anti-Western and anti-Israel. Closely 
affiliated with, and often directed by Iran, but may have conducted 
operations that were not approved by Tehran.'' \5\
---------------------------------------------------------------------------
    \5\ Patterns of Global Terrorism 1997, U.S. Department of State, 
April 1998, p. 61.
---------------------------------------------------------------------------
    The support that Iran provides is both financial and military. The 
Hizbollah leadership is frequently entertained in Tehran by the Iranian 
leadership which delivers directives for operations in southern 
Lebanon, Israel, and Jordan. Hizbollah's operations also extend into 
both Europe and South America. Despite Khatami's apparently moderate 
stance regarding most areas of foreign policy, his stance toward 
Hizbollah and its operations against Israeli targets receives his 
blanket approval.
    Hizbollah emerged in 1982 under the tutelage of a number of Shi'ite 
clerics who followed the teachings of the Iranian mullahs and preached 
of the oncoming Islamic revolution in Lebanon. \6\
---------------------------------------------------------------------------
    \6\ Kramer, Martin, ``The Moral Logic of Hizballah,'' Origins of 
Terrorism, Walter Reich, Ed. (1990: Cambridge University Press), p. 
133.
---------------------------------------------------------------------------
    A review of statements made by Hizbollah officials during the 
course of the past year indicates the close relationship between 
Hizbollah and Iran undaunted by the election of a ``moderate'' 
president in Iran. For example, Hizbollah Secretary General Hassan 
Nasrallah made the following statement when asked whether he felt 
Iran's policy toward Hizbollah would change pending the elections 
between Khatami and Ah Akbar Natek-Nouri, the alleged ``hard-liner'' in 
the Iranian elections: ``Both those candidates will not allow 
themselves to falter in any way in their support for Hizbollah and the 
anti-Zionist resistance.'' \7\
---------------------------------------------------------------------------
    \7\ Tehran IRNA, March 6, 1997.
---------------------------------------------------------------------------
    Last October, Nasrallah was invited to Tehran--one of at least 
eight known trips by leading Hizbollah officials during the past 12 
months--where he was interviewed in Al-Sharq Al-Awsat and stated, ``the 
position of the Iranian leadership and of Muhammad Khatami's government 
on the Lebanese and Palestinian peoples and their right to fight the 
occupation and liberate their usurped land has not changed at all from 
Iran's former positions.'' \8\ This view, taken from the leader of 
Hizbollah, sums up the solid nature of the relationship between Iran 
and Hizbollah--regardless of who is in power--that Iran will support 
the exporting of its revolution through Hizbollah.
---------------------------------------------------------------------------
    \8\ London Al-Sharq Al-Awsat,  October 16, 1997.
---------------------------------------------------------------------------
    One of the vehicles through which Iran supports the Hizbollah and 
simultaneously solidifies its influence is by means of funding 
religious, social, and welfare organizations in Lebanon. Although the 
precise amount that Iran provides is probably impossible to ascertain--
insofar as it is disseminated through many Iranian official, unofficial 
and derivative accounts, to a similar multiple tier of accounts in 
Lebanon--most of the reliable intelligence estimates have estimated the 
yearly subsidy between $75 million and $150 million. The recipients 
include a host of welfare, Islamic, and social communal organizations 
that simultaneously reinforce a militant Islamic fundamentalist 
identity and an affiliation with Iran while providing an economic net 
and incentive to those who become active with Hizbollah.
    An intriguing story in Al-Watan Al-Arabi from November 28, 1997 
alleges that President Khatami, recognizing the need to establish a 
more pervasive and permanent influence in Lebanon that will outlive any 
fluctuations dependent upon Syria or upon the Hizbollah directly, 
embarked on an expansive long range plan to inject significant Iranian 
funds into a much wider spectrum of Lebanese civil society to ensure 
that Iran has a permanent level of support that transcends the Lebanese 
political and religious continuum. Although the report has not been 
confirmed, it reveals a political pragmatism on the part of Khatami but 
not a corresponding political moderation.
    Whatever degree of monetary support Iran provides to Hizbollah, 
however, this is not the only way that it keeps its orbit of radical 
influence alive. Another form of support that Hizbollah has received 
from Iran has been through military training and the continuous supply 
of increasingly advanced weapons. As recently as April 1998, according 
to Al-Watan Al-Arabi, Hizbollah has been training a number of its 
members in Iran under the instruction of Iranian officers in the 
revolutionary guards. \9\
---------------------------------------------------------------------------
    \9\ Al-Watan Al-Arabi, April 10, 1998.
---------------------------------------------------------------------------
    Iranian supplies are usually delivered via an air bridge through 
Damascus. According to western intelligence, more than 50 military 
resupply flights were conducted from Iran to Syria in October 1997 
alone. Sophisticated radio frequency detonated bombs have surfaced in 
attacks by Hizbollah in southern Lebanon thanks to Iran. Alarmingly, 
some of this new lethal technology has found its way to the West Bank 
and Gaza to Hamas terrorist groups who have been assisted by Hizbollah 
and by Iran directly. The Associated Press reported on November 28, 
1997 that the shelling of the Israeli village of Beit Lif by Hizbollah 
yielded shells with inscriptions on them showing that they were made in 
Iran. The report claimed that the weapons are flown from Iran to Syria 
and trucked from Syria to Hizbollah in Lebanon.
    It is clear that Hizbollah receives some of its directives directly 
from Iran. Hizbollah continues to alternatively deny this logistical 
connection--in order to maintain its integrity among its grassroots 
membership--as well as laud its ties to Iran. The relationship between 
Iran and Hizbollah has not always followed a surrogacy pattern yet as 
the creator, spiritual father, and military guarantor of Hizbollah, 
Iran shares responsibility for the proliferation of Hizbollah attacks 
and operations throughout the Middle East.
    A case where Iran likely dictated the actions of Hizbollah occurred 
when the organization attempted to operate within Jordan. According to 
the Jordanian newspaper Amman Shihan, the speaker of the Iranian Majles 
(Parliament) met with Hizbollah leaders in Damascus, Syria in January 
or February 1998 and agreed on a plan to carry out military operations 
within Jordan. \10\ Soon after the meeting, a terrorist plot against 
Israeli tourists at Petra, a popular tourist attraction in Jordan, was 
uncovered involving members of the Lebanese Hizbollah organization. 
\11\
---------------------------------------------------------------------------
    \10\ Amman Shihan, April 18, 1998.
    \11\ Amman Shihan, April 16, 1998.
---------------------------------------------------------------------------
    According to Arab intelligence reports, up to 11 terrorist training 
camps have been operated in Iran during the past year. At these camps, 
militant ``volunteers'' and guerrilla regulars from Lebanon, Syria, 
Jordan, Gaza, Egypt, Sudan, and Saudi Arabia have participated in 
operational training and surveillance exercises. Amman Shihan, on 
February 14, 1998, reported that five different organizations were 
established by Tehran to maintain direct contact with militant agents 
abroad, all directly answerable to Khamene'i. According to this report, 
the names of the groups are: 1) Islamic Cultural Liaisons; 2) Islamic 
Propagation Organization; 3) The Global Group Ahl al Bayt; 4) Office of 
Islamic News; and 5) Ministry of Culture and Spiritual Guidance. \12\
---------------------------------------------------------------------------
    \12\ Amman Shihan, February 14, 1998.
---------------------------------------------------------------------------
    The Jordanian daily newspaper Amman Shihan reported on February 14, 
1998 that Iran's budget for exporting its Islamic revolution increased 
for 1998 by 15%. \13\ This, coupled with the other reports listed, 
leads to the conclusion that little, if anything, has changed for Iran 
with regard to the export of its revolution under the leadership of 
President Khatami.
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
Iran's Connection to Radicals in Europe
    Historically, Iranian agents have operated across Europe, 
eliminating opposition figures, recruiting supporters, and coordinating 
the activities of terrorist groups, specifically Hizbollah. For 
example, the assassination of former Iranian Prime Minister Shahpur 
Bakhtiar in August 1991 in Paris, was carried out by operatives from 
Tehran. The Mikonos restaurant murder trial in Germany brought to light 
Iran's terrorist operations in Europe, and serves as a good case study.
    Four members of an Iranian Kurdish opposition group were gunned 
down at the Mikonos restaurant in Berlin, Germany on September 17, 
1992. The subsequent trial of the members of the ``hit squad'' who 
committed the killing helped unveil the organization of the Iranian 
regime's terrorist network, specifically the part pertaining to Europe. 
The Berlin court issued its ruling in April 1997. Presiding Judge 
Frithjof Kubsch said the order to kill the Kurdish opposition figures 
came from the very highest levels of the Iranian government. \14\ He 
said the court found the Iranian government had a special committee to 
direct assassinations called the ``Committee for Secret Operations,'' 
whose members included President Hashemi Rafsanjani, Foreign Minister 
Ali Akbar Velayati, Ayatollah Ali Khamene'i, and Intelligence chief Ali 
Fallahian. The Judge said the Committee assigned Fallahian the task of 
carrying out the murders, and he in turn transferred the matter to 
lower level intelligence agents. One of the primary contact agents in 
Germany was a man named Darabi, a member of the Pasdaran (Iranian 
Revolutionary Guards). Darabi was also a liaison with Hizbollah, and he 
used his contacts to recruit Hizbollah operatives for the ``hit 
squad.'' Two of the members of the ``hit squad'' received military and 
ideological training in Iran. This is how the Iranian government 
terrorist network in Europe worked. The German court issued an arrest 
warrant for Fallahian, who is no longer intelligence chief, but he has 
yet to be apprehended. \15\
---------------------------------------------------------------------------
    \14\ Munich Focus (May 5, 1997) reports that former high-level 
Iranian Intelligence agent, Abolghassem Mesbahi, supplied the court 
with decisive evidence to support this point.
    \15\ The information on the German court's ruling comes from a 
transcript of the Mikonos verdict summary, as published in Frankfurt/
Main Frankfurter Rundschau, April 12, 1997.
---------------------------------------------------------------------------
    While Tehran appears to be pursuing the same ends today, its agents 
are not likely to be the primary actors anymore. Iran has been 
assiduously setting up a network of Hizbollah and other Islamic 
operatives to carry out the work formally performed by Iranian agents. 
This network is being financed through Islamic religious groups and 
banks. The Iranian diplomatic mission to the United Nations in Geneva 
is one of the nerve centers for the European network. Iranian agents 
should have little trouble finding new recruits; there are an estimated 
600 Hizbollah adherents in Germany alone. \16\
---------------------------------------------------------------------------
    \16\ The alternative Hizbollah network has allowed Iran to extend 
the reach of its terrorist activities. This is illustrated by the case 
of Steven Smyrek. Smyrek is a German citizen, who converted to Islam, 
and was recruited by Hizbollah's European operatives. He trained in 
Hizbollah camps in Lebanon, and then returned to Europe. Soon after, 
Smyrek boarded a plane for Israel, with the intention of committing a 
terrorist attack. Before he could carry out his intended attack, 
however, Israeli authorities apprehended him. Smyrek is currently in an 
Israeli prison, awaiting trial. German authorities are preparing a case 
against him in preparation for an extradition request from Israel.
---------------------------------------------------------------------------
Hamas and Iran

    Ties between Hamas and Iran have developed significantly since the 
end of the 1991 Gulf War against Iraq. Despite a clear convergence of 
interests in the destruction of the State of Israel and the 
establishment of an Islamic State in Palestine, prior to the Gulf War, 
ideological-sectarian differences between Hamas, a Sunni organization, 
and Iran, a Shi'a Muslim State, had earlier prevented the development 
of close ties between the two entities.
    The Gulf War and its aftermath witnessed a historical rapprochement 
between Iran and Hamas. In June 1990 and February 1991, Hamas 
representatives traveled to Iran to discuss the situation in the Gulf 
with Iranian officials. \17\ Hamas officials returned to Iran in 
December 1990 and October 1991, to attend two conferences hosted by 
Iran in support of the armed Palestinian uprising and to sabotage the 
US-sponsored peace process. At the October 1991 conference, a fatwa (a 
religious edict) was issued that forbade abandoning the obligation of 
Jihad for Palestine. \19\
---------------------------------------------------------------------------
    \17\ Filasteen al Muslima, March 1991.
    \18\ Hatina, Meir, ``Iran and the Palestine Movement,'' Orient 38, 
1997.
---------------------------------------------------------------------------
    In 1991, Hamas and Iran agreed to open a Hamas information office 
in Tehran, headed by then-Chairman of Hamas' Internal Committee Imad 
al-Alami. Iranian financial and material assistance for Hamas, which 
has ranged from $20 million to $30 million per year, began shortly 
thereafter. \19\ Some intelligence reports maintain that Iran's 
contribution constitutes half of Hamas' annual fundraising collection 
of $60 million.
---------------------------------------------------------------------------
    \19\ Al Sha'ab, December 28, 1993, Al Sharq al Awsat, October 26, 
1997, Jane's Intelligence Review,  November 1, 1997.
---------------------------------------------------------------------------
    Iranian support and ties to Hamas and Islamic Jihad have continued 
unabated during the past year. In June 1997, one month after the 
election of Iranian President Hojjat ol-Eslam Seyyed Muhammad Khatami, 
Iran's Deputy Foreign Minister 'Abbas Maliki stated that Iranian 
``support to the Islamic Resistance Movement (Hamas) was part of the 
responsibility that his country bears toward the Palestinian people.'' 
\20\
---------------------------------------------------------------------------
    \20\ Jordan Times, June 16, 1997.
---------------------------------------------------------------------------
    According to western intelligence sources and published reports in 
a Persian Gulf newspaper, in early July 1997, Iran dispatched 
emissaries to Lebanon to meet with senior Hizbollah, Hamas, and other 
Palestinian terrorist groups to actively prepare for a new round of 
terrorist attacks against Israel to be instigated from outside the West 
Bank and Gaza. The Iranian instructions were clear and unambiguous. 
Hamas suicide bombings in Mahane Yehuda and Ben Yehuda killed scores of 
Israelis just two months later. This July 1997 contact between Hamas 
representative Mustafa al-Liddawi and Iranian backed Hizbollah 
surrogate leader Nasrallah was not an isolated incident. The two 
organizations train together in Lebanon. \21\
---------------------------------------------------------------------------
    \21\ Al-Watan Al-Arabi, January 2, 1998.
---------------------------------------------------------------------------
    Last month, in April 1998, Sheikh Ahmed Yassin, Spiritual Leader of 
Hamas, spent six days visiting Iran, as an official guest of the 
government, where he met with top Iranian officials and received 
political and financial backing to continue the jihad against Israel. 
During his visit to Iran from April 28-May 3, 1998, Sheikh Yassin met 
with Iranian Foreign Minister Kamal Kharazi, Deputy Foreign Minister 
for Arab and African Affairs Seyyed Mohammad Sadr, Revolution Leader 
Ayatollah Khamene'i, Expediency Council Head Hashemi Rafsanjani, and 
President Khatami. The trip to Iran was Yassin's fourth country on a 
tour of the Middle East. He had just come to Iran from Saudi Arabia, 
where he had secured $100 million in donations to Hamas. \22\
---------------------------------------------------------------------------
    \22\ Amman Shihan, May 5, 1998.
---------------------------------------------------------------------------
    As with his trip to Saudi Arabia, Yassin's trip to Iran was also in 
pursuit of financial and material support. \23\ Iranian leaders 
welcomed Yassin, lavished praise on Hamas, and spoke about Iran's 
commitment to providing Hamas with assistance. The whirlwind tour of 
Iran by Yassin made front page news and received top billing on Iranian 
television through the visit. After meeting with Yassin, Ayatollah 
Khamene'i stated on Iranian television: ``The Palestinian nation's 
jihad is a source of honor for Islam and Muslims . . . God's promises 
will undoubtedly come true and the Islamic land of Palestine will some 
day witness the annihilation of the usurper Zionist rule and the 
establishment of a Zionist government nation . . .'' \24\ The report on 
Iranian television concluded with the statement that ``Sheik [sic] 
Ahmed Yassin described the next century as the century of Islam, 
referring to the certain annihilation of the superpowers, including 
America.''
---------------------------------------------------------------------------
    \23\ On April 28, 1998 Israel TV in Arabic reported that 
Palestinian Authority officials were concerned about Yassin's 
fundraising during his visit to States in the Arabian Gulf.
    \24\ Tehran IRNA, May 2, 1998.
---------------------------------------------------------------------------
    Following a separate meeting with Foreign Minister Kamal Kharrazi, 
Yassin vowed to ``continue our struggle until the liberation of 
Palestine and freedom from the occupiers' oppression.'' \25\ Kharrazi 
endorsed Yassin's call to enlist support in the Arab for the 
``liberation of all the occupied lands.'' In its lead editorial, the 
semi-official Kayhan International proclaimed Yassin's visit as an 
opportunity to ``mobiliz[e] Arab and Islamic powers to overthrow the 
Zionist-imperialist alliance which tries to give legitimacy to Zionist 
occupation through the so-called peace process.'' \26\
---------------------------------------------------------------------------
    \25\ Tehran IRNA, April 29, 1998.
    \26\ Kayhan International, May 2, 1998.
---------------------------------------------------------------------------
    Hamas and Iran are typically effusive when asked about financial 
support arrangements. In an interview with Paris Radio Monte Carlo on 
May 2, 1998, Sheikh Yassin was asked about his trip to Tehran and 
whether there would be greater coordination between Hamas and Iran. 
Yassin asserted, ``The relationship is of course strong and good. Hamas 
has a bureau in Tehran. We hope this relationship will continue. There 
is material, political, and social assistance for us. We ask our 
brothers to use their resources to extend aid to us.'' \27\ When asked 
specifically about Iranian financial commitments to Hamas, Yassin 
commented that Hamas was .... given favorable promises during our tour 
of the Arab and Islamic countries that we visited, particularly Iran.'' 
\28\ In the same interview, Yassin came to the defense of Iran when 
asked about U.S. policy,

    \27\ Paris Radio Monte Carlo, May 2, 1998.
    \28\ Ibid.
---------------------------------------------------------------------------
          My brother, first of all we wish to state that the U.S. is 
        the origin of arrogance and tyranny in the world. . . . They 
        accused Iran of terrorism and accused us of the same. This is 
        our path . . . We would like our brothers in the Arab and 
        Islamic world to support our cause and call . . . That is why 
        we say we will cooperate with our kinfolk and brothers in the 
        Arab and Islamic world, especially Iran. . . .

    In addition to the substantial Iranian financial pledge to Hamas, 
the weekly Al Hadaf confirmed that Hamas was also promised technical 
assistance, including new explosive devices to assist in suicide 
attacks against Israel. \29\
---------------------------------------------------------------------------
    \29\ Al Hadaf, April 30, 1998.
---------------------------------------------------------------------------
    According to Hamas Political Bureau Head Khalid Mish'al, ``We 
accept donations from any quarters, be they popular or official, 
provided that these donations are donations with no strings attached.'' 
\30\ Sheikh Yassin has also claimed that Hamas is ``not dependent on 
any country, neither Iran nor anyone else.'' \31\ In Palestinian 
politics, the charge of being an agent of another country is a brush 
used to tar--with varying effectiveness---political opponents. At times 
when the PLO has wanted to challenge Hamas, the PLO charged that Hamas 
was a surrogate for Iran--although the PLO has also maintained 
relations with Iran at the same time.
---------------------------------------------------------------------------
    \30\ Al-Sharq Al-Awsat, October 26, 1997.
    \31\ Israel TV, Jerusalem Channel 2, January 24, 1998.
---------------------------------------------------------------------------
    According to a report in the weekly Al Hadaf on April 30, 1998, 
Iranian officials asked Sheikh Yassin and other senior Hamas leaders in 
Lebanon to consider moving operational headquarters to Tehran. In the 
aftermath of the attempted assassination of Hamas leader Khalid 
Misha'l, Iranian officials suggested that the move to Iran would enable 
Hamas leaders to evade Israeli attack and to start new military planing 
in Tehran without Israeli interference. \32\
---------------------------------------------------------------------------
    \32\ Al Hadaf, April 30, 1998.
---------------------------------------------------------------------------
    The joint training of Hamas and Hizbollah is indicative of an 
Iranian strategy to continue the export of revolution and to ensure the 
continued jihad for the recapture of Palestine and Jerusalem. According 
to Consultative Assembly Speaker 'Ali Akbar Natek-Nouri, Iran will 
continue to provide material and military support to the factions 
confronting Israel--both in and outside of Lebanon. \33\ Toward this 
end, it was reported in April 1998, that Natek-Nouri held meetings in 
Damascus with leaders of Hamas and the Islamic Jihad. \34\
---------------------------------------------------------------------------
    \33\ Amman Shihan, April 18, 1998.
    \34\ Ibid.
---------------------------------------------------------------------------
Iran and the Palestinian Islamic Jihad
    Although the Islamic Jihad is a militant Sunni movement, it has 
flourished with the inspiration and support of Shi'a Iran. According to 
Ramadan Abdallah Shallah, Secretary General of the Islamic Jihad 
Movement, ``Our ties with Iran date back to the first days of our 
movement, just after the Islamic revolution took over in Iran . . .'' 
\35\
---------------------------------------------------------------------------
    \35\ Beirut Al-Shira', July 28, 1997.
---------------------------------------------------------------------------
    Shallah, secretary general of the Islamic Jihad since October 1995, 
has been a frequent participant at various meetings featuring leaders 
of major terrorist groups attended by and often sponsored by Iranian 
government officials. At a February 1996 meeting in Damascus, Iran's 
First Vice-President, Hassan Habibi met with radical Palestinian 
leaders including Shallah at the Iranian Embassy. According to Maher 
al-Taher, the spokesman for Popular Front for the Liberation of 
Palestine (PFLP) who was present at the meeting, ``Habibi expressed 
Iran's support for all Palestinian strugglers who are continuing their 
fight to liberate their lands from the Israeli occupation. '' \36\ 
Others attending this meeting included PFLP leader, George Habash, 
AIlmed Jibril, leader of the Popular Front for the Liberation of 
Palestine-General Command (PFLP-GC), and the head of the Fatah 
uprising, Colonel Abu Mousa. According to al-Taher, ``The Palestinian 
leaders praised Iran's position, which is supporting the just causes 
and those who are confronting pressures from the U.S..'' ``Both sides 
also agreed to boost bilateral cooperation, especially in the coming 
period,'' he added. \37\
---------------------------------------------------------------------------
    \36\ Reuters, February 28, 1996.
    \37\ Ibid.
---------------------------------------------------------------------------
    In June of 1996, Ramadan Abdallah Shallah attended a clandestine 
meeting in Tehran where a joint communique' was issued by several 
terrorist leaders. The plan was to coordinate terrorist attacks and 
activities. It was agreed that the ``al-Quds Army,'' a unit of the 
Iranian intelligence service that deals with secret missions worldwide, 
would determine which operations were to be approved.
    Iran's logistical and spiritual support of the Islamic Jihad is 
clear. In early November 1997, Mehdi Rezae'i, the Secretary of Iran's 
Expediency Council, memorialized former Islamic Jihad leader Fathi 
Shikaki at a special ceremony at Tehran University commemorating the 
second anniversary of his death. Also present to pay tribute to the 
terrorist leader were Abu-Jihad and Abu Hamdan, the Palestinian Islamic 
Jihad representative was the Hamas representative in Tehran. \38\
---------------------------------------------------------------------------
    \38\ Tehran IRNA, November 3, 1997.
---------------------------------------------------------------------------
Iranian Links to Sudanese State Supported Terrorism
    Iran has a long documented history of involvement with the 
terrorist supporting state of Sudan. The relationship between Sudan and 
Iran has been characterized by a confluence of interest in terrorism 
and the export of Islamic revolution. Iran provides funding, military 
advisors, weaponry, and material assistance to Sudan. In return, Iran 
receives port privileges at Port Sudan and Suakin. \39\ This 
cooperation does not appear to have abated since the election of 
Khatami.
---------------------------------------------------------------------------
    \39\ Jane's Intelligence Review, November 1, 1997.
---------------------------------------------------------------------------
    Iranian technical ``experts'' train Sudanese government soldiers 
and operatives at the terrorist training camps in Sudan. \40\ It was 
reported as recently as January 1998, that the Iranian government was 
sending military advisors and weapons shipments to Sudan. \41\ In 
addition to Iranian military advisors in Iran, there have been reports 
of Iranian mercenaries in Sudan who ``undertake terrorist activities 
with the coordination of the Sudanese government.'' \42\
---------------------------------------------------------------------------
    \40\ Opposition leader Brigadier General 'Abd al Aziz Khalid 
Uthman, quoted in Al Akhbar, February 19, 1997.
    \41\ EIU Country Profiles, January 5, 1998.
    \42\ Eritrean foreign minister, Radio Ethiopia External Service, 
Addis Ababa, July 3, 1997.
---------------------------------------------------------------------------
    A sensitive intelligence source revealed that Togan Camp, an 
Eritrean Islamic Jihad terrorist camp in Eastern Sudan, was overrun by 
a democratic militia opposing the Turabi government. \43\ A search of 
the camp uncovered files of Farsi-language documents, as well as a 
large cache of Iranian-issued weapons.
---------------------------------------------------------------------------
    \43\ The Eritrean Islamic Jihad (EIJ) is attempting to overthrow 
the democratically elected government of Isayas Afewerki. EIJ is allied 
with the Islamic Government in Khartoum.
---------------------------------------------------------------------------
    Much of the money used by Sudan to train and equip foreign 
insurgents is provided by the Pasderan, (Iranian Revolutionary Guard). 
\44\ According to an August 1997 report published in the Indigo 
Intelligence Newsletter, following the assassination of Hamas terrorist 
leader Yehyia Ayyash, Mohammed Daif, a senior Hamas operative in Gaza 
fled to Sudan and opened a new branch of Ezzedine al Qassam. The new 
branch's operations, including recruitment and operating costs, are 
said to come from Iran. \45\
---------------------------------------------------------------------------
    \44\ Jane's Intelligence Review, November 1, 1997.
    \45\ Indigo Publications, Intelligence Newsletter, August 28, 1997.
---------------------------------------------------------------------------
    Iran has built and operates a radio station in Eastern Sudan, which 
broadcasts militant Islamic propaganda to several countries in North 
Africa. \46\
---------------------------------------------------------------------------
    \46\ Jane's Intelligence Review, March 1, 1998.
---------------------------------------------------------------------------
Terrorist Conference in Iran
    One of the Iranian government's mechanisms for coordinating the 
activities of terrorist groups is by hosting conferences, which are 
attended by a variety of terrorist leaders. In the past, these 
conferences took place on a regular basis, and involved high level 
Iranian officials and terrorist leaders. The June 1996 conference in 
Tehran, for example, which was attended by Ramadan Shallah (Palestinian 
Islamic Jihad), was also attended by Ahmad Salah (Egyptian Jihad), Imad 
Mugnyeh (Lebanese Hizbollah), Ahmad Jibril (PFLP-GC), Imad al-Alami and 
Mustafa al-Liddawi (Hamas), George Habash (PFLP), and a representative 
of terrorist financier Osama bin-Ladin. \47\ The election of Muhammad 
Khatami has not changed the Iranian regime's policy of hosting such 
conferences.
---------------------------------------------------------------------------
    \47\ Information about this conference comes from ``Rise of 
Hizballah International,'' in Defense and Foreign Affairs' Strategic 
Policy, August 31, 1996 and Paris Al-Watan Al-Arabi, July 19, 1996.
---------------------------------------------------------------------------
    In October 1997, another terrorist conference was held in Tehran. 
Again, representatives from a variety of terrorist groups reportedly 
attended. Alimad Jibril, Ramadan Shallah, and Imad Mugnyeh were there, 
as was Usamah AbuHamdan (Hamas), Abd-al-Hadi Hammadi (Hizbollah), 
representatives of the Egyptian al-Gama'at Islamiya, and a delegate 
from branches of Hizbollah in the Persian Gulf. Senior Iranian 
officials hosted the meeting. General Mohsen Rezai', former head of the 
Revolutionary Guards and currently in charge of reorganizing Iranian 
security services, reassured his guests the Islamic Revolution would 
never abandon their movements. He reportedly presented a plan for 
terrorist actions against the U.S., Turkey, and Israel. The actions 
would apparently come in the form of assassinations and attacks on 
diplomatic, commercial, and military targets. \48\
---------------------------------------------------------------------------
    \48\ Paris Al-Watan Al-Arabi October 10, 1997.
---------------------------------------------------------------------------
Statements
    President Khatami speaks with a voice similar to his predecessors 
in some ways. Though he issues moderate-sounding thoughts and ideas, he 
still toes the hard-line of the clerical elite when it comes to foreign 
policy. In a speech broadcast on Iranian television on January 26, 
1998, interrupted by shouts of ``Death to America,'' Khatami said: ``We 
had and have major enemies, whether before the revolution or after the 
revolution: Those who have harmed our interests, our independence, our 
freedom, and our greatness. Above all, we have received the greatest 
harm from unjust policies of America.'' \49\
---------------------------------------------------------------------------
    \49\ Tehran IRIB Television First Program Network,  January 26, 
1998.
---------------------------------------------------------------------------
    During the same speech on January 26, 1998, Khatemi excoriated 
Israel. He stated: ``Which factor is stronger than the racist, Zionist 
regime in creating tension? The root of tension in the region is the 
Zionist regime. And the all-round support for that regime is one of 
America's wrong policies. The root of tension is Israel and the cause 
of tension is America's wrong policies in supporting that racist, 
bullying regime, that focal point of state terrorism.'' \50\
---------------------------------------------------------------------------
    \50\ Ibid.
---------------------------------------------------------------------------
    In his first news conference after his election as President, 
Khatami blamed the U.S. for the poor relations between the U.S. and 
Iran: ``As long as America formulates its relations with us on the 
basis of efforts to harm our independence and national interests, no 
relations can be established between the two countries. We are not 
prepared to accept bullying and hegemonistic policies, and any change 
in our policies toward America will depend on changes in the attitude 
and policies of America toward our revolution and country.'' \51\
---------------------------------------------------------------------------
    \51\ Tehran IRNA, May 27, 1997.
---------------------------------------------------------------------------
    In his February 11, 1998 address commemorating the Anniversary of 
the Islamic Revolution, Khatami pandered to anti-American sentiments, 
criticizing the U.S. and its presence in the Persian Gulf. Referring to 
the U.S., Khatemi stated: ``The foreign presence in the region is the 
cause of tension and it means disrespect for the nations of the 
region.'' \52\
---------------------------------------------------------------------------
    \52\ Tehran First Program Network, February 11, 1998.
---------------------------------------------------------------------------
    During his Friday Sermon on May 8, 1998, Iranian Supreme Leader 
Khamene'i testified to the continued Iranian support for 
``combatants,'' a euphemism for terrorist organizations. He said ``We 
support the Palestinian combatants to achieve their legitimate rights . 
. . we are proud of supporting the Palestinian combatants and deem it 
as our duty.'' \53\ Later in his sermon, Khamene'i praised Hamas leader 
Sheikh Yassin, who had recently completed his visit to Iran.
---------------------------------------------------------------------------
    \53\ Tehran IRNA, May 8, 1998.
---------------------------------------------------------------------------
Rushdie Fatwa Reconfirmed Under Khatami
    Optimistic expectations that the election of a new president would 
result in the suspension of the religious death sentence against Salman 
Rushdie, the British author of ``Satanic Verses'' have not been 
realized. In February 1989, Iranian Revolution leader Ayatollah 
Khomeini issued a fatwa, a religious edict, calling for the death of 
Rushdie. Khomeini died in the summer of 1989, but the fatwa lives on--
as does Rushdie, who is still in hiding, under the protection of 
British Secret Service.
    With the election of Khatami, some observers opined that the 
Rushdie fatwa might be canceled or repealed. Contrary to these 
expectations, since the election of Khatami, Iranian officials have 
defiantly affirmed the legitimacy of the fatwa. On February 15, 1998, 
during a speech marking the anniversary of Khomeini's death sentence 
fatwa, Majles Speaker Ah Akbar Natek-Nouri ``expressed hope that the 
death sentence on apostate Salman Rushdie will be executed by Muslim to 
teach a lesson to those who oppose God and the divine prophets.'' \54\ 
In April, Natek-Nouri stated that ``. . . the fatwa or religious edict 
should be viewed equally in the context of freedom of expression of 
which the west considers itself a champion.'' \55\
---------------------------------------------------------------------------
    \54\ Tehran IRNA, February 15, 1998.
    \55\ Tehran IRNA, April 5, 1998
---------------------------------------------------------------------------
    The Iranian Islamic Revolution Guards Corps (IRGC) has also 
maintained that Rushdie must die. An IRGC statement issued on February 
14, 1998 stressed that the fatwa is ``always enforceable,'' and added: 
``The apostate Rushdie must receive the right desert for his shameful 
deed of offending the belief and sanctities of more than one billion 
Muslims.'' \56\
---------------------------------------------------------------------------
    \56\ Tehran IRNA, February 14, 1998.
---------------------------------------------------------------------------
    The Rushdie death sentence fatwa has been reconfirmed by the 
Iranian Foreign Ministry, as recently as March 2, 1998. During an 
official visit, UN Human Rights Commissioner Mary Robinson apparently 
misrepresented the Iranian position on the Rushdie issue. In a 
subsequent clarification to the press, the Deputy Foreign Minister of 
Iran reiterated that the Khomeini fatwa against Rushdie was 
irrevocable. \57\
---------------------------------------------------------------------------
    \57\ Tehran IRIB Television, March 2, 1998.
---------------------------------------------------------------------------
Conclusion
    It is clear that a comprehensive review of Iranian actions and 
activities during the course of President Khatami's tenure has not 
diminished in any way the level of support for international terrorism 
by Iran. While the level of financial and military support to radical 
Islamic groups remains intact, casting doubt about the speculation by 
several foreign policy specialists and former officials that have 
claimed that Iran has moderated its support of international terrorism, 
the Iranian regime today, bent on acquiring nuclear, biological, and 
ballistic missile capability is a threat to its neighbors, to the 
survival of pro-Western Middle Eastern governments, and to the security 
of the U.S. and its allies in the West.
    In the end, U.S. policy towards Iran should largely remain intact, 
in keeping with the political and economic pressure on the Iranian 
regime. To the extent that President Khatami does represent a sincere 
change in reversing Iranian radicalism, the U.S. ought to adopt the 
approach of incremental reciprocity, i.e., exchanging ad hoc economic 
and political incentives for demonstrable changes in the Iranian 
regime's support for terrorism. Economic sanctions have caused serious 
dislocations to the Iranian economy, breeding massive discontent which 
in turn led to the election of President Khatami. Loosening of these 
sanctions, at this point, would only result in resolidifying the power 
base of the radicals. If Khatami is not sincere, or is merely a 
pragmatist seeking to soften Western opposition to investment and 
technology transfer, then the policy of loosening containment will end 
up reversing Iran's political incentives to change.
    I would like to submit for the record a recent article from The 
Weekly Standard, by Edward Shirley, a pseudonym for a former senior 
U.S. intelligence official. The article pinpoints the issue with 
extraordinary clarity and insight, citing two operative items that 
succinctly highlight the issues that now confront U.S. policy.
    [A copy of the article to which Mr. Emerson referred has been 
maintained in the Committee's files.]

    Senator Robb. Thank you, Mr. Emerson.
    Mr. Murphy, there was a time when you appeared on panel one 
instead of panel two, but we are delighted to have you here in 
this capacity, and we would welcome your testimony.

STATEMENT OF HON. RICHARD W. MURPHY, SENIOR FELLOW, COUNCIL ON 
                FOREIGN RELATIONS, NEW YORK, NY

    Mr. Murphy.  Thank you very much, Mr. Chairman. It is a 
pleasure to be back. No matter what position, your lights start 
just as bright as ever.
    Let me just comment in passing on this map that you have 
been looking at all this time. I think it would be a lot more 
meaningful if that map had some dates on it. I am not disputing 
the fact of incidents, but I think it is relevant to see how 
these incidents have occurred in the timeframe, and in 
particular to look at very closely--and I do not have access to 
this intelligence, but to press our intelligence sources for 
information on who died last year at the hands of Iranian 
services and where.
    But that said, I have submitted a brief statement for the 
record. Let me make even briefer comments. I think the time is 
at hand for a reevaluation and possibly some moves by the 
United States concerning our relations with Iran for two 
reasons, the political developments in Iran over the past year, 
and the increasing tensions with some of our closest allies 
over the way we are dealing with that country.
    That said, there are constraints both in Washington and in 
Tehran over how to move in a new direction. Suspicions continue 
in both capitals about the other's intentions over what they 
are trying to do.
    Now, President Khatami set the scope for contacts, no 
official exchanges. He has encouraged the cultural educational 
representatives to come, journalists to visit. Washington has 
been positive in its response, though hoping for official 
exchanges.
    One of the three main charges we have had against Iran has 
been its support for violent opposition to the peace process. I 
would draw the subcommittee's attention to two statements of 
the past several months, one on Lebanon and one on the peace 
process more broadly.
    When the Iranian foreign minister said about Hizbollah that 
its mission would be over when the Israelis withdrew from 
Lebanon scarcely--I mean, quite welcome news, I would think, in 
Washington, to have that statement of principle out there, and 
that would imply, obviously, a cutoff in Iranian training, 
funding, equipping of that militia.
    And the second was concerning the Israeli-Palestinian 
negotiations. If they are able to reach an agreement--and he 
did say acceptable to the Palestinians, and obviously there 
will not be an agreement unless it is acceptable on both 
sides--that would not cause any problem for Iran. They would 
accept what the Palestinians accepted.
    We have talked and heard a good deal of references to 
terrorism. I would like to look at certain other areas where I 
think the Congress, working with the administration, should at 
least have a look at possible moves by us.
    We are caught in the position right now of saying those 
words are very nice, but what about some actions. Well, they 
are saying just the same thing in Tehran about us. President 
Clinton's statement was welcomed, his messages to Tehran over 
the radio have been welcomed, but where is the American 
actions?
    And four actions I would like to suggest, four things to 
keep in mind. One is--and it may sound to you as far out, but 
to give some thought to an arms control regime for the Persian 
Gulf, Iran, Iraq, and the six States of the Gulf Cooperation 
Council. Whether we can play a useful lead role, I am not sure, 
but I think it will take considerable input on our part to get 
it going.
    But that area remains dominated by fear, fear on the part 
of each State of its neighbor, and part of it certainly is fear 
of the weapons of mass destruction. Now, the Iranians have 
expressed interest in the past in a nuclear-free zone. Some 
Iranians have alluded to having a weapons of mass destruction 
free zone in the Gulf. Let us examine how that might be built 
upon and see how much substance there is behind those 
statements.
    The statement today out of Tehran shows a deep concern 
about the Indian testing, and I am sure that is related to what 
Secretary Cohen referred to just yesterday as the potential 
chain reaction should Pakistan follow in Iran's steps. Well, 
the Pakistani-Iranian relationship is edgy, and you would see 
the chain reaction moving in that direction.
    Second, on the pipelines, that question is under very 
intense study here and in the executive branch. I would ask 
that everyone take a step back and recognizing how negative the 
state of mind set here is about Iran--this is not necessarily 
forever, but a pipeline is for a good long time in the future, 
and once that line is decided, in place, it is going to 
determine political and economic relations for a generation.
    So unless the companies themselves are pressing for a 
decision, unless they have to move because of the nature of 
their investments, the timing of their investments, I would 
hope that Washington would not move preemptively at this point 
in time, closing the door on a possible moving across Iran.
    Third, the long-running Hague Tribunal in effect trying to 
settle Iranian-American claims against each other has had 
considerable success over the years. It ought to be closed down 
with a global settlement, and we should be ready again to test 
how serious the Iranians are about their interests in a global 
settlement.
    I understand they represented it at The Hague, at this 
tribunal, as hinted that they might be interested in an overall 
settlement, a fair package.
    And finally, obviously the Iranian situation is of deep 
concern to Israel. It is of deep concern, not just to our 
Government, and I would urge that we stay in close touch with 
Israel, in close touch with AIPAC to explore ways to identify 
and build on trends which would be favorable to our interests, 
to Israeli interests.
    There has been public debate in Israel some months back 
about the possible improvement of Iranian-Israeli relations. 
AIPAC certainly played a key role in past congressional 
consideration of sanctions on Iran and its support for any 
change in direction would obviously be desirable.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Murphy follows:]

                  Prepared Statement of Richard Murphy

    The time has come to reshape American policy toward Iran. For 
nearly two decades, the difficulties we have had with that country have 
left a bitter legacy for American leaders and the American public. 
However, Iranian domestic political developments over the past year and 
increasing tensions with some of our closest allies over how to treat 
that country make a US policy reevaluation imperative.
    Since President Mohammed Khatemi's election last May, the 
atmosphere for each side to consider a US-Iranian dialogue has 
improved. The start up of this dialogue will take some time given the 
inhibitions prevailing in both capitals. As Washington considers a new 
relationship, it should recognize the depth of its ignorance about 
present day Iran which was always noted for the complexity of its 
politics and government structures. The 19 years since the revolution 
have surely created no less complex a scene today. We are less equipped 
to understand its domestic politics than when we had a major embassy in 
Tehran.
    I recommend that Washington consider sponsorship of an arms control 
regime initially to include Iran, Iraq and the Gulf Cooperation Council 
states; defer decisions on the issue of routing gas and/or oil 
pipelines from the Caspian states; and be prepared with a proposal for 
a global settlement of the outstanding claims at the Hague Tribunal. 
These thoughts are developed in the second half of this paper.
    Since the beginning of the Iran-Iraq war in 1980, our Iran and Iraq 
policies have been tightly linked. During the Iran-Iraq war we 
gradually tilted towards Iraq. Since 1993, Washington has followed the 
so-called ``Dual Containment'' policy. This linkage has reinforced our 
tendency to think about both Iran and Iraq primarily in military terms, 
as threats to US interests in the Gulf region and beyond. The ``Dual 
Containment'' formula has served to stifle debate in Washington about 
alternative ways of dealing with these two countries.
    Presidential executive orders restricted and ultimately banned US-
Iranian trade and investment. Those orders in conjunction with the Iran 
Libya Sanctions act of 1996, in which the Administration acquiesced 
under congressional pressure, will constrain any initiatives which the 
Administration might want to take to chart a new course. Similarly in 
Tehran, President Khatemi, who has declared his respect for Western 
achievements and the necessity for Iran to learn from them, is not free 
to authorize an official dialogue with the US. Instead he has proposed 
a period of increased cultural and educational exchanges. Washington 
has agreed and in response will simplify its visa procedures for 
Iranian applicants and encourage Americans to visit Iran in such 
exchanges. It has also reaffirmed its long held position that it is 
ready to deal with an authorized Iranian government representative to 
discuss our respective charges.
    President Khatemi presumably expects that a period of unofficial 
exchanges will make it easier for Tehran one day to engage in official 
meetings. He may share the views of more junior Iranian officials who 
have spoken of the embarrassment suffered by some Iranian officials who 
had backed the signing in 995 of an oil exploration agreement with 
CONOCO when Washington forced that company to cancel it. Prominent 
American officials have reinforced Iranian suspicions that basically we 
still want to overthrow the Islamic Republic regime. Despite an 
apparently cordial encounter earlier this year between Speaker Gingrich 
and the Iranian Foreign Minister, Iranians are quick to recall the 
Speaker's earlier call for an appropriation to undermine the regime. A 
further example of what Tehran sees as an effort to destabilize it came 
earlier this month in the congressional call for creation of a ``Radio 
Free Iran.'' The annual State Department report on terrorism again this 
year repeats harsh language about Iran some of which reads as out of 
date. However, the investigation into the al-Khobar towers bombing 
remains open and evidence of Iranian government complicity could 
prejudice improvement of relations.
    The Iranian revolution has lost some of its original steam but the 
present leadership includes clerics who resent our dominant world 
position, who see American culture as hostile to what they want for 
Iran and who deeply oppose America's military presence in the Gulf. 
Despite the encouraging substance and tone of the new President's 
statements we know that he is not the sole decision maker and must 
assume, for example, that he does not control all of Iran's several 
intelligence services. These services owe their allegiance to various 
clerics many of whose attitudes towards the West in general and the US 
in particular are not as benign as those which Khatemi professes. They 
could take initiatives which could complicate improvement in our 
bilateral relations This is not said to minimize the significance of 
Khatemi's views or of his electoral victory last May when he won 70% of 
the popular vote in a campaign most assumed had been rigged in favor of 
another candidate.
    Despite their evident concerns that Washington has not moved to 
amend its policy towards Tehran, Iranian leaders have continued to send 
out positive political signals concerning issues of deep interest to 
Washington. Foreign Minister Karrazi's recent comments related to the 
Arab-Israeli peace process are intriguing. First was his comment about 
Israel's stated readiness to withdraw from south Lebanon in accordance 
with UNSC 425. Karrazi said this withdrawal would effectively end the 
mission of the Hizbollah militia. Second, and equally welcome, was his 
comment that Iran would not oppose a Palestinian-Israeli agreement 
acceptable to the Palestinians.
Proposals for US Actions
    Regional Arms Control. Arms control steps such as hot lines, 
transparency of exercises and discussions of mutual needs and force 
structures could prove useful. Arms control talks never resolved basic 
political issues or averted security competition between the U.S. and 
the Soviet Union but they did help moderate and stabilize 
confrontations on the margin.
    On the assumption that weapons of mass destruction (WMD) will 
continue to be studied and perhaps developed in the Persian Gulf and 
broader Middle East, I propose American promotion of a regional arms 
regime for the Persian Gulf states, i.e. Iran, Iraq and the six states 
of the Gulf Cooperation Council. Including Iran and Iraq would be a 
goal for which, I believe, we would find support in Moscow and Europe 
and one which China would not oppose.
    Fear of one's neighbor prevails throughout the Gulf region and many 
predictably, if privately, will justify their intent to develop weapons 
of mass destruction in the name of assuring their national security. As 
for Iran, some of its senior diplomats have suggested that they would 
welcome discussions about the Gulf as a nuclear free zone. Currently 
there are severe economic pressures on both Iraq and Iran as a result 
of the devastating wars they have endured and the depressed prices for 
their oil. Such pressures conceivably could increase their readiness to 
discuss taking some initial steps in an arms control process.
    The Iraq situation has sensitized us as to how cheap it is to make 
chemical and germ warfare agents and how easy it is to hide them. 
Nevertheless, we may discover that the Gulf situation contains some of 
the same problems with which we once wrestled in negotiating arms 
control with the Soviet Union and may present some similar 
opportunities.
    We appear to be more concerned about WMD in the Middle East than 
many of the regional countries themselves are. Regional leaders seem to 
doubt the massive destructive power of these weapons. Those leaders who 
are friendly to Washington assume that if weapons of mass destruction 
are all that important then the US will somehow manage to resolve the 
issue. To reassure them and to get the Gulf region as a whole thinking 
about a regional dialogue with each other on any kind of arms control 
regime will require a US lead. If successful it could greatly benefit 
American interests in the Gulf region and in the broader Middle East.
    Pipelines. If the international oil companies working in Central 
Asia do not need to start construction of new pipeline routes 
immediately, the US Government should not lock the door prematurely 
against the prospect of a new pipeline transiting Iran. The routing of 
new pipelines will have profound political and economic implications 
for years to come. Today, some in the Administration and Congress 
fiercely resist any easing of US sanctions on Iran. Depending on how 
the US-Iranian dialogue develops, these elements may be more ready to 
rethink their positions in the coming months and years.
    Hague Tribunal. Prepare proposals for a global settlement of the 
remaining Iranian and American claims before the Hague Tribunal. I 
understand the Iranian representative to the Tribunal has already 
informally floated the idea of moving to a general settlement.
    Israel. Consult closely with Israel and with the influential 
lobbying group the American Israel Public Affairs Committee about how 
to encourage trends in Iran which are supportive of US and Israeli 
interests. Some in Israel have publicly debated whether Israeli policy 
towards Iran might need changing. For its part, AIPAC was an important 
player during Congressional consideration of the sanctions legislation. 
Its support for any redirection of America's Iran policies will be 
highly desirable.

    Senator Robb. Thank you very much, Mr. Murphy. That is a 
very thoughtful and--not provocative in the usual sense, but at 
least thought-provoking list of matters to consider in this 
particular venue.
    I was attempting to take a number of notes here as we 
proceeded, and I had specific questions. Let me work back, if I 
may.
    Mr. Murphy, you mentioned this map and suggested that we 
try to get some sense of dates that were associated with the 
numbers that were killed, or specific terrorist activities that 
were carried out. Implicit in that comment, at least to me, was 
that we may be looking at some very old actions or grudges. If 
I am not interpreting that correctly, then please----
    Mr. Murphy.  No, just so. It does not mean their support 
for terrorism is over and done with, by no means.
    Senator Robb. But in terms of active promotion of terrorist 
activities in each of these countries you are suggesting that 
we ought to consider whether or not they have done anything 
recently, or whether they appear to be continuing that type of 
activity?
    Mr. Murphy.  Right, and can you graph out the intensity of 
the incidents since 1979?
    Senator Robb. Would you respond to that, because that is 
your particular field of expertise, Mr. Emerson, and you 
painted a pretty active picture. Are there areas that might be 
included in this map or another map that certainly could 
include a number of additional countries in which some type of 
terrorist activity is known to have taken place, certainly in 
open sources.
    Mr. Emerson.  Well, I think it is not a bad idea to have 
more details, but I would say that, for example, if you look at 
the Iranian terrorist activity in Argentina, Iran is believed 
to be behind, and Hizbollah behind the 1992 bombing of the 
Israeli embassy, as well as the Omni Center, and there is a 
Hizbollah presence in the Triborder area.
    However, there has not been any noticeable terrorist 
activity by Iran in Buenos Aires since the bombing, and so the 
question would become, should that be considered sort of on the 
chart?
    I would say with the right statement, yes, because Iran 
continues to deny any responsibility as well as to harbor an 
intelligence network that can be activated in any of the places 
that are listed on this map, and you could have certainly added 
Canada and the United States.
    There was a recent case in Canada where Canadian court 
documents revealed that Hizbollah members under the direction 
of Iran were taking surveillance video of potential targets in 
Canada. Now, that was back in 1991, 1992, and 1993. The 
question is, is it happening today?
    I have no open source information on that. However, based 
on the pattern of how Iran operates, and the use of front 
groups that periodically report to Iran and that can be 
activated, it is fair to assume that, even if they have not 
been active in the violent sense in the last 2 years in one 
country, that violent intrusion can be felt within a matter of 
hours if Iran so desired.
    And so I would say that yes, I would like to see--I think 
it would be helpful to have dates attached to the last violent 
activity, but that does not account for the existence of the 
infrastructure that can be activated at any moment, and that 
continues to be in existence at this very time in most of those 
countries.
    Senator Robb. How about the question of the statement made, 
if the mission in effect that Hizbollah was pursuing because of 
Israeli occupation, putting it in the context of the Hizbollah, 
if that were removed, there would be no need for Hizbollah and 
its activities. Do you believe that that ought to be given 
particular weight?
    Mr. Emerson.  It should be given a certain amount of 
weight, but in the context of looking at everything else, there 
also is a continuous flow of weapons, of very advanced weapons 
by Iran to Hizbollah, including weapons now that really are, if 
used against the United States in the Persian Gulf, would cause 
a lot more casualties than we have seen.
    So actions speak louder than words. I know that even 
Khatami has questioned the value of the Hizbollah role in terms 
of the long-range military confrontation with Israel. On the 
other hand, he has also talked about the need to firmly implant 
Iran's influence in Lebanon permanently by infusing more money 
into social welfare groups and the political process, so he is 
essentially thinking about transforming Iranian influence.
    Now, whether that becomes a hot spot of continued Iranian 
revolutionary activity remains to be seen, even with the issue 
of the Middle East peace process.
    There have been some welcome statements relative to others. 
On the other hand, the statements that were just issued in the 
past month and a half in conjunction with Ahmed's visit were 
very discouraging. They promised additional weapons. They 
promised additional funds. They talked about liberating all of 
Palestine, and their notion of a satisfactory solution to the 
Palestinian conflict is something that is really much more 
attuned to the ideology of Hamas than it is to the PLO.
    Mr. Eisenstadt.  Excuse me, Senator Robb, can I jump in 
here?
    Senator Robb. Please.
    Mr. Eisenstadt.  Just on the issue of Foreign Minister 
Harazi's statement about Lebanon and the map, I have here the 
quote of his statement about Lebanon.
    Now, on the on hand I would say it is important to say that 
in the past Iranian officials would have welcomed an Israeli 
withdrawal as a first step on the road to the liberation of 
Jerusalem, so against that historical context the statement is 
relatively moderate, but it is perhaps a welcome small change 
over the past statements.
    On the other hand, if you could read the statement in a way 
which was--he said if Israel to withdraw, quote, ``the aims of 
the resistance would have been achieved in reality.'' That is 
simply a statement of fact, and it does not judge the issue of 
whether Hizbollah would continue operations.
    So it is positive in a historical context, but the way it 
could be read, it is just simply a statement of, well, yeah, 
they would have achieved their goal. It does not say what would 
happen after that.
    The other point I would like to make has to do with regard 
to the map. The other thing I would point out, in addition to 
the statements made by my colleagues, is that it does not 
portray intensity of effort.
    Now, my understanding--I do not focus on Central Asia very 
much, but my understanding in talking to people who do is, 
their impression is that Iran's level or intensity of activity 
in terms of efforts to proselytize and exploit the revolution 
in Central Asia is much lower than in other areas such as 
Turkey in recent years, and among the Palestinians.
    Anyhow, so I think it is important to look at the map in 
that light.
    There is another--I think there is a deeper truth which is 
also portrayed by the map. I know this is a map which attempts 
to show Iran's exports of terrorism and fundamentalism. The 
important thing, though, is that Iran is not colored in this.
    I think that shows a deeper truth, that we have seen in 
recent years that the revolution in Iran is a spent force, and 
the fact is that I heard recently from an Iranian academician 
who went to Turkey, who said he was surprised to find that he 
felt that Turkey was a more Islamic society than Iran was 
today, meaning that the majority of Iranians are fed up with 
having religion forced on them.
    The Islamic Revolution has alienated the majority of the 
Iranian people from Islam, and this affects Iran's ability to 
serve as a model for Islamic movements elsewhere.
    As a result, I think in the eighties our concerns, and 
early nineties our concerns about Iran's ability to export the 
revolution are much greater than they should be today. I think 
their terrorism, their ability to engage in terrorism worldwide 
still exists. They do maintain infrastructures that they could 
activate.
    We know they are stalking our people in various different 
places and, in fact, the Rev Guard Commander Safavi in October 
of last year, I think, said that if Iran was attacked they 
would respond on a worldwide basis, and I think they have the 
ability to do so, so I think that certainly still is an area of 
concern for us.
    Senator Robb. Let me ask you a question. You raised in your 
opening comments about communication, and you separated into 
three groups the Iranian Government, the Iranian people, and 
the Gulf Arabs and Europeans as three different groups that we 
have to consider separately as we consider what we say and what 
others say in terms of what we say and what we do.
    Tell me how we communicate effectively with the Iranian 
people if we are not--the Government-to-Government 
communications, while they have been broadly encouraged on our 
side, they have not been welcomed by anybody else, probably 
under pressure from the Ayatollah still, but in any event, that 
level of communications is not currently open.
    They are not going to open up in quite the same way that 
CNN did, and do not have quite the same for Hatami's interview 
here, and he clearly was using that to target the broader U.S. 
audience, did not seem to followup in other comments that he 
made that were not targeted in quite that way.
    But in what way can the U.S. Government, or representatives 
of the U.S. Government, or those who espouse the essential 
philosophy that we are tying to suggest in terms of a non-
Islamic as opposed--and I do not mean in the religious sense, 
but a secular pluralistic approach in terms of Governments, and 
some sense of what our democratic principles stand for, how can 
we communicate if we do not have any lines of communication, 
and the Government will not permit Government-to-Government, or 
permit us to communicate directly?
    Mr. Eisenstadt.  Actually, I think there are a number of 
routes that we have available. For instance, the Farsi Service, 
the Persian Service of the Voice of America, is one very 
effective means, and there is also a TV Voice of America, TV 
service, if I understand.
    In addition, we know that there is proliferation of 
satellite stations in the region which carry American programs, 
and we know that there are many Iranians who have satellite 
dishes. There is also the Internet.
    And finally there is an Iranian-American community of 1 to 
2 million strong, depending on who you talk to, who are in 
contact with their relatives back home.
    Senator Robb. I am aware of all of those. Indeed, we are 
doing them all now.
    But you are not talking about some new medium of exchange, 
though, that would reach the people, other than the links that 
are already there, some of which the Government really cannot 
control. North Korea is probably the only country which can 
truly control what their people hear, and even they are having 
difficulty.
    Mr. Eisenstadt.  I guess what I was saying is less devoted 
to the medium rather than the message. I was saying we need to 
present a different image and different demeanor in dealing 
with the initiatives of the Government.
    Senator Robb. Increased awareness or consciousness on the 
part of U.S. Government representatives that their message 
might be misinterpreted by the Iranian people even though it is 
delivered----
    Mr. Eisenstadt [continuing]. to the Government, or it could 
be spun by the Government in a way which undercuts our standing 
in the eyes of the Iranian people and, again, that is our most 
precious asset, and it is a source of leverage over the 
Government there.
    And there was an article by Robin Wright in the L.A. Times 
a few days ago which discussed how Iranian officials are 
disappointed by the lack of American response to their 
initiatives and the like.
    I think it was a tendentious listing on their part. I think 
we have been more forthcoming than was given by them in that 
article, but it raised in my mind the possibility that we could 
be losing out, we could be losing the war for the hearts and 
minds of the Iranian people which right now we have won.
    And it is very important in considering our actions toward 
the Iranian Government that we be aware of how what we do is 
perceived, mainly by the Iranian people, and then also by our 
Arab allies and the Europeans as well, but it is mainly the 
Iranian people, because they are the engine for change in Iran 
today.
    Senator Robb. Let me ask a question that any of the three 
of you could respond to, if you will. In my dealings with all 
of the surrounding countries and those in the region almost 
without exception, they are certainly willing to give Khatami a 
honeymoon period, or whatever, in terms of developing a new 
relationship.
    How about the Iranian people, the two-thirds or so that 
preferred him notwithstanding the Ayatollah's desires in that 
particular election. How soon does he have to deliver? Is there 
a timeframe that he loses credibility, and whatever possible 
momentum for change?
    Anybody want to take a shot at that? In other words, does 
Khatami have to deliver to the people that elected him, and if 
so, how soon, and what criteria might be used by the people to 
evaluate whether or not this is the kind of departure we want 
to make from what we have?
    Mr. Emerson.  If I can just point out, to a certain extent 
he has already delivered, to the point that there has been an 
introduction into Iranian society which is intellectual and 
very independent of new publications, of new television 
programming, of books, of previously banned foreign 
periodicals.
    In other words, he has really opened the free market 
approach. He is introducing the free market approach in terms 
of intellectual ideas, so there is more of a pluralism and 
debate going on, so to a certain extent that has reinforced and 
solidified his popular appeal.
    One of the questions I guess you are getting at is, are 
there other incentives, or other things that would help 
solidify his base, or is this not going to be sufficient if the 
economic dislocations caused by the sanctions, or whatever, 
continue to undermine the Iranian people's belief that their 
Government is representing them.
    The U.S. has got a major dilemma here, because to a certain 
extent we have to definitely encourage whatever trends are 
there. On the other hand, we do not want to jump the gun 
prematurely here, and it might end up in the long run that Iran 
is willing to only go so far and that is it, and that its 
revolutionary Islamic identity will not change.
    Do we wipe the slate clean on the terrorists who have 
carried out attacks on Americans who are now living freely in 
Tehran, for which there have been some sealed indictments? I 
mean, are we prepared to do that? Is the Iranian Government 
prepared to extradite them? I doubt that, and that is an issue 
that is going to be very, very sore, if it ever comes down to 
even that level of discussion.
    I mean, another level of discussion, of course, relates to 
what the Ambassador referred to in terms of the dispute over 
assets. I do not know whether a general settlement is possible, 
but a discussion is worthwhile here, but in the end I think we 
have to make sure that we pace ourselves, that yes, there 
should be incremental approaches here, but they are going to 
have to deliver.
    If we save the regime, save Khatami, or resolidify him, 
there really needs to be a quid pro quo in practice.
    Senator Robb. Is Khatami in a position to establish a 
dialog? At this point he cannot, but will there come a time 
when he could accept the U.S. offer of a Government-to- 
Government dialog?
    Mr. Murphy.  I think there is no question the time will 
come. He did not feel it was possible when we restated our 
readiness to meet with an authorized representative. He is not 
in sole control, and so cannot make much more statement than 
that.
    But how soon does he need to deliver, and what does he need 
to deliver? It is jobs. The economic situation is not good, and 
the economic situation is probably not--its deterioration is 
not to be credited to American sanctions.
    I mean, there is mismanagement, there is problems and, 
above all, for this past several months, and unfortunately for 
the foreseeable future, there is stagnant oil prices, and with 
an economy that is so heavily dependent on its oil production 
and exports, he had a tough job to fulfill some of the hopes 
that were placed in his election a year ago this month.
    Senator Robb. But does he have to, in effect, to get 
additional jobs, or whatever the case may be, bring about 
through some actions that he would take, or at least that would 
happen on his watch, that would cause the sanctions to be 
lifted, which would be the likelihood of, I assume, the biggest 
creation of jobs that could occur? Is that ultimately the quid 
pro quo for his success and continued popularity?
    Mr. Murphy.  I think it would be a major, major element in 
his success as president, but if we lift the sanctions, and I 
do not sense any great tearing urgency in the Congress or the 
administration----
    Senator Robb. No. That is what I was wondering, if the goal 
is realistic, or is it something--is he going to end up being 
in effect sort of a Gorbachev, that puts a kinder face but 
really does not have any major effect?
    Mr. Murphy.  Well, he could be a transitory figure between 
the early days of the revolution and what lies ahead, but he 
had made some statements which I think are encouraging from the 
standpoint of American interest, and I hope we can find a way 
to move ourselves--and I do not think we have moved in any 
significant way yet, so when I hear this concern that we are 
going to overturn the apple cart and totally change our course, 
that is the least of the dangers.
    But the oil prices, that is not our control. He would do 
better economically if American sanctions did not exist and, 
perhaps more importantly, if Americans were not discouraging 
the World Bank and the IMF from investments in that country. I 
mean, we do have a major influence there.
    Senator Robb. They tend to go hand-in-hand.
    Well, let me just ask one more question. Unfortunately, 
there is a vote on, so we are being constrained by forces of at 
least two different directions, and we are going to have to 
close down here in just a minute.
    Your suggestion of an arms control council with Iran, Iraq, 
and the GCC States, has anything like that been tried within 
that group, and in terms of arms control, would you anticipate 
Iran and Iraq each negotiating arms control agreements 
separately with the GCC States, because they have an existing 
framework to negotiate in one body, although they have trouble 
getting closure on a lot of matters as well.
    But is this something that you bring it in in a sort of 
United Nations fashion? I am just trying to flesh out in my own 
mind, because it is an intriguing concept and clearly security 
questions about neighbors permeates all of their thinking.
    I agree with your premise.
    Mr. Murphy.  This is just a concept. At this point it needs 
a lot of study, a lot of fleshing out. There are some pegs out 
there, such as the Iranian statements on interest in a nuclear 
or weapons of mass destruction free zone.
    How serious? We are not going to know until they are 
probed. I mean, you are in the odd situation where they deny 
they have any nuclear program. Iraq says they disposed of all 
of their weapons of mass destruction in the running gun battle 
with the UNSCOM on that issue.
    But with depressed oil prices, and the fact that you do not 
have, as far as I am aware, any weapons of mass destruction in 
the GCC States, there may be some common ground here. Anyway, 
we are going to be carrying out some discussions within my own 
organization at the council.
    Senator Robb. Gentlemen, I apologize again. The chairman 
had to go over and be on the floor to argue an amendment. 
Unfortunately we all have to go to the floor at this point to 
vote.
    I am not sure but it is entirely possible there may be more 
than one. I am not sure that he will get back, and I think all 
three of you have had a chance to at least present your oral 
testimony. We have your full statements in the record. We will 
rely on those.
    It is entirely possible that any member of the committee 
may wish to followup with you in some written communication if 
they may, but because of the constraints of the floor vote and 
not wanting to have you wait unnecessarily for some additional 
questions, I think we will go ahead and bring this hearing to a 
close.
    On behalf of the chairman, may I thank you for your 
willingness to come and share your thoughts with us today. I 
think that they were obviously timely.
    We will have a decision here in the next couple of days 
that will at least reverberate with some of the testimony that 
we have heard, and we thank you for your participation.
    With that, the hearing comes to a close.
    [Whereupon, at 3:10 p.m., the subcommittee adjourned.]

                                    

      
</pre></body></html>
